AUDIT OF THE OFFICE OF JUSTICE PROGRAMS
      BUREAU OF JUSTICE ASSISTANCE
        EDWARD BYRNE MEMORIAL
 JUSTICE ASSISTANCE GRANTS AWARDED TO
THE INDIANA CRIMINAL JUSTICE INSTITUTE
         INDIANAPOLIS, INDIANA

        U.S. Department of Justice
      Office of the Inspector General
               Audit Division


       Audit Report GR-50-10-005
              August 2010
        AUDIT OF THE OFFICE OF JUSTICE PROGRAMS
             BUREAU OF JUSTICE ASSISTANCE
               EDWARD BYRNE MEMORIAL
        JUSTICE ASSISTANCE GRANTS AWARDED TO
        THE INDIANA CRIMINAL JUSTICE INSTITUTE
                INDIANAPOLIS, INDIANA

                          EXECUTIVE SUMMARY

      The Office of the Inspector General, Audit Division has completed an
audit of the Edward Byrne Memorial Justice Assistance grants awarded by
the U.S. Department of Justice (DOJ), Office of Justice Programs (OJP),
Bureau of Justice Assistance (BJA) to the Indiana Criminal Justice Institute
(ICJI), located in Indianapolis, Indiana. Between October 1, 2006, and
December 31, 2009, the ICJI was awarded five grants totaling $34,713,325.

       The purpose of the Justice Assistance Grant (JAG) Program is to allow
states, tribes, and local governments to support a broad range of activities
to prevent and control crime based on their own local needs and conditions.
JAG funds can be used for state and local initiatives, technical assistance,
training, personnel, equipment, supplies, contractual support, and
information systems for criminal justice for any one or more of the following
purpose areas:

   • Law enforcement programs

   • Prosecution and court programs

   • Prevention and education programs

   • Corrections and community corrections programs

   • Drug treatment programs

   • Planning, evaluation, and technology improvement programs

   • Crime victim and witness programs (other than compensation)

Recovery Act

      On February 17, 2009, the President signed into law the American
Recovery and Reinvestment Act of 2009 (Recovery Act). The purposes of
the Recovery Act are to: (1) preserve and create jobs and promote
economic recovery; (2) assist those most impacted by the recession;
(3) provide investments needed to increase economic efficiency by spurring
technological advances in science and health; (4) invest in transportation,
environmental protection, and other infrastructure that will provide long-
term economic benefits; and (5) stabilize state and local government
budgets in order to minimize and avoid reductions in essential services and
counterproductive state and local tax increases.

        Through Recovery Act JAG funding, DOJ focused support on all
components of the criminal justice system, including multi-jurisdictional drug
and gang task forces; crime prevention and domestic violence programs;
and courts, corrections, treatment, and justice information sharing
initiatives. Recovery Act JAG-funded projects could address crime by
providing services directly to individuals and communities and by improving
the effectiveness and efficiency of criminal justice systems, processes, and
procedures.

Audit Results

      The purpose of this audit was to determine whether reimbursements
claimed for costs under the grants were supported and allowable in
accordance with applicable laws, regulations, guidelines, terms and
conditions of the grant and to determine program performance and
accomplishments. The objective of our audit was to review performance in
the following areas: (1) grant requirements; (2) internal control
environment; (3) cash management; (4) program income; (5) grant
expenditures; (6) property management; (7) supplanting; (8) management
of subrecipients and contractors; (9) Financial Status Reports (FSR),
Progress Reports, and Recovery Act Reports; and (10) program performance
and accomplishments. We determined that property management and
management of contractors were not applicable to these grants. Therefore,
testing was not performed in these areas.

      As shown in the following exhibit, the ICJI was awarded $34,713,325
in JAG and Recovery Act JAG funding between October 1, 2006, and
December 31, 2009.




                                      ii
EXHIBIT:      EDWARD BYRNE MEMORIAL JUSTICE ASSISTANCE GRANT
              AWARDS TO THE INDIANA CRIMINAL JUSTICE INSTITUTE
           AWARD         AWARD         AWARD         AWARD       AWARD
           NUMBER      START DATE     END DATE      AMOUNT        TYPE
       2007-DJ-BX-0081 10/01/06       09/30/10     $ 5,415,403  Standard
       2008-DJ-BX-0018 10/01/07       09/30/11       1,907,757  Standard
       2008-DJ-BX-0752 10/01/07       09/30/11         178,960 Supplement
       2009-DJ-BX-0049 10/01/08       09/30/12       5,537,961  Standard
       2009-SU-B9-0047 03/01/09       02/28/13      21,673,244  Stimulus
                        Total                      $34,713,325
   Source: OJP Grants Management System (GMS)

      At the time of our review, no sub-awards had been made and no costs
had been incurred in association with grants 2008-DJ-BX-0752 and
2009-DJ-BX-0049. As a result, we performed the majority of our testing on
grants 2008-DJ-BX-0018 and 2009-SU-B9-0047. However, less than $300
in administrative expenses had been billed to either of these two grants.
Thus, we performed our administrative expense testing on grant
2007-DJ-BX-0081.

       Based upon our interviews with ICJI officials and examination of the
ICJI’s accounting records, required reports, and operating policies and
procedures, we found:

   •    The financial management system provided for segregation of duties,
        transaction traceability, system security, and limited access.

   •    The administrative expenditures, including payroll and fringe benefits,
        and subrecipient transactions reviewed were, in general, properly
        authorized, classified, supported, and charged to the grants.

   •    The FSRs, Progress Reports, and Recovery Act Reports were submitted
        in a timely manner.

   •    The ICJI adequately addressed its mission of improving and supporting
        programs related to law enforcement; prosecution and court;
        prevention and education; corrections and community corrections;
        drug treatment; planning, evaluation, and technology improvement;
        and crime victim and witnesses by awarding $19,505,918 in Recovery
        Act JAG funding to 34 subrecipients aimed at addressing the specified
        purpose areas established in their applications for grant
        2009-SU-B9-0047.



                                        iii
       However, we identified several internal control and reporting
deficiencies, as well as unallowable and unsupported costs that had been
allocated to the awards. In addition, we found unreported program income.
Specifically, we found:

  •   Although subrecipients reported to the ICJI $1,038,261 in federal and
      state program income earned between January 1, 2008, and
      December 3, 2009, the ICJI did not report any program income to OJP.
      During our audit, the ICJI identified a total of at least $3,482,466 in
      potential program income earned by subrecipients. Further, the ICJI
      was not ensuring that subrecipients were using program income for
      allowable program expenses and under the conditions applicable to the
      awards.

  •   The ICJI charged $1,546 in unallowable costs to grant number
      2007-DJ-BX-0081 for incentive payments to ICJI employees who
      elected to participate in a health wellness program.

  •   One subrecipient was unable to provide documentation supporting the
      $36,323 in expenses charged to grant 2008-DJ-BX-0018.

  •   ICJI’s monitoring and oversight of subrecipients was not adequate.
      Specifically:

        o The ICJI lacked adequate staff to properly oversee and manage
          the JAG awards.

        o The ICJI lacked adequate formal policies and procedures for its
          administration of JAG awards and monitoring subrecipients’ use
          of JAG funds.

        o The ICJI did not have adequate formal policies and procedures
          for subrecipients to use in managing their awards.

        o The ICJI conducted a limited number of site visits. Moreover,
          there was little evidence in the ICJI’s files that the site visits
          performed included a review of the financial operations and
          records of the subrecipients, the identification of weaknesses and
          necessary corrective actions, or follow-up to ensure that any
          identified problems had been resolved.

        o The ICJI also did not require its subrecipients to submit any
          supporting documentation with their reimbursement requests.


                                     iv
            Instead, the ICJI simply paid subrecipients the amounts reflected
            on their submitted claims.

         o The ICJI did not review or follow up with subrecipients when
           required forms or reports were incomplete or contained
           erroneous or questionable information.

         o The ICJI did not review the single audits of its subrecipients
           when submitted. Additionally, subrecipients were not required
           to provide copies of any other internal or external audits or
           reviews that may contain findings on overall internal control
           weaknesses or deficiencies that could affect the subrecipients’
           management and oversight of their JAG sub-awards.

  •   Three subrecipients had not filed their financial reports for the quarter
      ended December 31, 2009. However, the failure to submit these
      reports did not affect the accuracy of the FSR the ICJI submitted to
      OJP for the quarter ended December 31, 2009.

  •   The ICJI’s calendar year 2008 performance report for grant number
      2007-DJ-BX-0081 understated three metrics.

  •   Due to double-counting, the ICJI overstated the number of sub-awards
      made and the amount of funding sub-awarded on its Recovery Act
      Report for the quarter ended December 31, 2009.

     These items are discussed in detail in the Findings and
Recommendations section of the report. Our audit objective, scope, and
methodology are discussed in Appendix I.




                                       v
                                    Table of Contents

INTRODUCTION ................................................................................. 1
  Recovery Act ..................................................................................... 1
  Audit Purpose .................................................................................... 2
  Background....................................................................................... 3
  OIG Audit Approach ........................................................................... 3

FINDINGS AND RECOMMENDATIONS................................................. 5
  Internal Control Environment .............................................................. 5
    Single Audit.................................................................................... 5
    Financial Management System .......................................................... 6
    High Risk Grantee Designation .......................................................... 6
  Drawdowns ....................................................................................... 7
  Program Income ................................................................................ 7
  Grant Expenditures ............................................................................ 9
    Personnel Expenses ....................................................................... 10
    Other Direct Costs......................................................................... 11
  Subrecipient Expenditures ................................................................ 12
  Supplanting .................................................................................... 13
  Management of Subrecipients............................................................ 14
    Solicitation Process ....................................................................... 14
    Awards Process............................................................................. 15
    Training and Technical Assistance ................................................... 16
    Management of Funds ................................................................... 17
    Monitoring.................................................................................... 18
  Reporting........................................................................................ 22
    Subrecipient Reporting .................................................................. 23
    Financial Status Reports ................................................................ 23
    Annual Progress Reports ................................................................ 24
    Performance Measurement Reports ................................................. 24
    Quarterly Recovery Act Reports ...................................................... 25
    Equal Employment Opportunity Program (EEOP) Reports ................... 26
  Program Performance and Accomplishments ....................................... 27
  Conclusion ...................................................................................... 30
  Recommendations ........................................................................... 30

APPENDICES
I. OBJECTIVE, SCOPE, AND METHODOLOGY ........................................ 32
II. SCHEDULE OF DOLLAR-RELATED FINDINGS .................................... 34
III. GRANT 2008-DJ-BX-0018: SUBGRANT PROJECTS ........................... 35
IV. GRANT 2009-SU-B9-0047: SUBGRANT PROJECTS .......................... 39
V. AUDITEE RESPONSE .................................................................... 41
VI. OJP RESPONSE............................................................................ 46
VII. OIG, ANALYSIS AND SUMMARY OF ACTIONS NECESSARY
         TO CLOSE THE REPORT.......................................................... 50
                                 INTRODUCTION

      The Office of the Inspector General, Audit Division has completed an
audit of the Edward Byrne Memorial Justice Assistance grants awarded by
the U.S. Department of Justice (DOJ), Office of Justice Programs (OJP),
Bureau of Justice Assistance (BJA) to the Indiana Criminal Justice Institute
(ICJI), located in Indianapolis, Indiana. Between October 1, 2006, and
December 31, 2009, the ICJI was awarded five grants totaling $34,713,325.

       The Edward Byrne Memorial Justice Assistance Grant (JAG) is a
formula grant program in which the 50 states, the District of Columbia,
American Samoa, Guam, the Northern Mariana Islands, Puerto Rico, and the
U.S. Virgin Islands are eligible to apply. 1 The purpose of the JAG Program is
to allow states, tribes, and local governments to support a broad range of
activities to prevent and control crime based on their own local needs and
conditions. JAG funds can be used for state and local initiatives, technical
assistance, training, personnel, equipment, supplies, contractual support,
and information systems for criminal justice for any one or more of the
following purpose areas:

   • Law enforcement programs

   • Prosecution and court programs

   • Prevention and education programs

   • Corrections and community corrections programs

   • Drug treatment programs

   • Planning, evaluation, and technology improvement programs

   • Crime victim and witness programs (other than compensation)

Recovery Act

      On February 17, 2009, the President signed into law the American
Recovery and Reinvestment Act of 2009 (Recovery Act). The purposes of
the Recovery Act are to: (1) preserve and create jobs and promote
economic recovery; (2) assist those most impacted by the recession;

       1
           Formula grant programs are noncompetitive awards distributed to states based on a
specific funding formula. Byrne grant formula awards are based in part on a state’s or
territory’s share of violent crime and population.
(3) provide investments needed to increase economic efficiency by spurring
technological advances in science and health; (4) invest in transportation,
environmental protection, and other infrastructure that will provide long-
term economic benefits; and (5) stabilize state and local government
budgets in order to minimize and avoid reductions in essential services and
counterproductive state and local tax increases.

        Through Recovery Act JAG funding, DOJ focused support on all
components of the criminal justice system, including multi-jurisdictional drug
and gang task forces; crime prevention and domestic violence programs;
and courts, corrections, treatment, and justice information sharing
initiatives. Recovery Act JAG-funded projects could address crime by
providing services directly to individuals and communities and by improving
the effectiveness and efficiency of criminal justice systems, processes, and
procedures.

Audit Purpose

      The purpose of our audit was to determine whether costs claimed
under these grants were allowable, reasonable, and in accordance with
applicable laws, regulations, guidelines, and terms and conditions of the
grants. The objective of our audit was to review performance in the
following areas: (1) grant requirements; (2) internal control environment;
(3) cash management; (4) program income; (5) grant expenditures;
(6) property management; (7) supplanting; (8) management of
subrecipients and contractors; (9) Financial Status Reports (FSR), Progress
Reports, and Recovery Act Reports; and (10) program performance and
accomplishments. We determined property management and management
of contractors were not applicable to these grants; therefore, testing was not
performed in these areas.

      As shown in Exhibit 1, between October 1, 2006, and December 31,
2009, the ICJI was awarded a total of $34,713,325 in funding under both
the JAG and Recovery Act JAG Programs. Based on grant activity, we
limited our audit to funding awarded under grants 2007-DJ-BX-0081,
2008-DJ-BX-0018, and 2009-SU-B9-0047. 2


       2
           At the time of our review, no sub-awards had been made and no subrecipient costs
had been incurred in association with grants 2008-DJ-BX-0752 and 2009-DJ-BX-0049. As a
result, we performed the majority of our testing on grants 2008-DJ-BX-0018 and
2009-SU-B9-0047. Because less than $300 of administrative expenses had been billed to
either of these two grants, we performed our administrative expense testing on grant
2007-DJ-BX-0081.



                                             2
   EXHIBIT 1: EDWARD BYRNE MEMORIAL JUSTICE ASSISTANCE GRANT
               AWARDS TO THE INDIANA CRIMINAL JUSTICE INSTITUTE
      AWARD          AWARD      AWARD
      NUMBER       START DATE  END DATE AWARD AMOUNT      TYPE
  2007-DJ-BX-0081   10/01/06   09/30/10  $ 5,415,403    Standard
  2008-DJ-BX-0018   10/01/07   09/30/11    1,907,757    Standard
  2008-DJ-BX-0752   10/01/07   09/30/11      178,960   Supplement
  2009-DJ-BX-0049   10/01/08   09/30/12    5,537,961    Standard
  2009-SU-B9-0047   03/01/09   02/28/13   21,673,244    Stimulus
                  Total                  $34,713,325
Source: OJP Grants Management System (GMS)

Background

      OJP’s mission is to increase public safety and improve the fair
administration of justice across America through innovative leadership and
programs. OJP seeks to accomplish its mission by disseminating
state-of-the-art knowledge and practices across America by providing grants
for the implementation of these crime-fighting strategies. To support this
mission, the BJA provides leadership and assistance to local criminal justice
programs that improve and reinforce the nation’s criminal justice system,
with goals to reduce and prevent crime, violence, and drug abuse and to
improve the way in which the criminal justice system functions.

       Located in Indianapolis, Indiana, the ICJI, which is guided by a Board
of Trustees representing all components of Indiana's criminal and juvenile
justice systems, serves as the state's planning agency for criminal justice,
juvenile justice, traffic safety, and victim services. The ICJI develops long-
range strategies for the administration of Indiana's criminal and juvenile
justice systems and administers federal and state funds, including those
awarded under the federal JAG and Recovery Act JAG Programs, to carry out
these strategies. As part of administering federal and state funds, the ICJI
awarded grants to state, local, and multi-jurisdictional agencies, offices, and
task forces. 3

OIG Audit Approach

      We tested compliance with what we consider to be the most important
conditions of the grants. Unless otherwise stated in our report, the criteria
we audit against are contained in the OJP Financial Guide, award documents,
the Code of Federal Regulations, Office of Management and Budget (OMB)


       3
          Appendices III and IV list the grants sub-awarded by the ICJI to state and local
entities under grants 2008-DJ-BX-0018 and 2009-SU-B9-0047.


                                               3
Circulars, and the American Recovery and Reinvestment Act. We tested the
ICJI’s:

   •   internal control environment to determine whether the internal
       controls in place for the processing and payment of funds were
       adequate to safeguard grant funds and ensure compliance with the
       terms and conditions of the grants.

   •   grant drawdowns to determine whether grant drawdowns were
       adequately supported and the ICJI was managing grant receipts in
       accordance with federal requirements;

   •   grant expenditures to determine the accuracy and allowability of
       costs charged to the grants;

   •   management of subrecipients to determine how the ICJI
       administered pass-through funds;

   •   Financial Status Reports, Progress Reports, and Recovery Act
       Reports to determine whether the required reports were submitted on
       time and accurately reflected grant activity; and

   •   grant objectives and accomplishments to determine if the ICJI
       met or is capable of meeting the grants’ objectives.

     The results of our analysis are discussed in detail in the Findings and
Recommendations section of the report. Our audit objective, scope, and
methodology are discussed in Appendix I.




                                      4
                  FINDINGS AND RECOMMENDATIONS

       In general, the ICJI adequately accounted for grant funds
       received, sub-grants awarded, and its use of grant funds for
       administrative expenditures from grants 2007-DJ-BX-0081,
       2008-DJ-BX-0018, and 2009-SU-B9-0047. However, we
       identified several internal control and reporting deficiencies, as
       well as unallowable and unsupported costs that had been
       allocated to the awards. Specifically, we found that the ICJI’s
       system of internal controls and staffing did not sufficiently
       provide for adequate monitoring and oversight of subrecipient
       expenditures, accounting records, and grant activities. In
       addition, we found unreported federal program income totaling
       at least $3,482,466; unallowable administrative expenses
       totaling $1,546; and $36,323 in unsupported subrecipient
       costs. As a result, we identified a total of $37,869 in
       questioned costs and almost $3.5 million in potential enhanced
       revenue.

Internal Control Environment

       We reviewed the state of Indiana’s Single Audit Report, as well as the
ICJI’s policies and procedures and specific financial management practices, to
assess the ICJI’s risk of noncompliance with laws, regulations, guidelines, and
terms and conditions of the grants. To further assess risk, we obtained an
understanding of the reporting process, examined grant records and reports
prepared by the ICJI and its subrecipients, and interviewed ICJI personnel
regarding JAG award administrative charges and subrecipient oversight.

Single Audit

      According to Office of Management and Budget (OMB) Circular A-133,
non-federal entities that expend $500,000 or more in federal awards in a
year shall have a single audit conducted. As expenditures of federal funds
exceeded this level, the state of Indiana (or the State) was required to have
a single audit performed. We reviewed the state of Indiana’s report for fiscal
year (FY) 2008 and found that, while there were several findings, none were
related to the JAG awards or DOJ funds as a whole. 4




       4
           At the time of our audit, the FY 2008 Single Audit Report was the most current one
filed with the Federal Clearinghouse. The State’s fiscal year was July 1 through June 30 and
FY 2008 ended on June 30, 2008.


                                              5
Financial Management System

       The OJP Financial Guide requires grantees to establish and maintain a
system of accounting and internal controls that adequately identifies and
classifies grant costs. The system must include controls to ensure that funds
and other resources are used optimally and expenditures of funds are in
conformance with the general and special conditions applicable to the
recipient. Further, the OJP Financial Guide states that grantees should
establish and maintain program accounts that will enable, on an individual
basis, the separate identification and accounting of the receipt and
disposition of all funds and the application of all funds to each budget
category included within the approved award.

      We did not test the overall financial management system for the ICJI
as a whole, but conducted a limited review and performed testing in areas
related to the JAG awards, such as payroll. In September 2009, the state of
Indiana converted to a new automated financial management system, which
contains applications for grant management, payroll, and fund transfers
between state agencies. Based on interviews with ICJI personnel, we
believe this system provides for segregation of duties, transaction
traceability, and limited access. However, system controls do not appear to
be adequate to ensure compliance with applicable requirements of both the
JAG and Recovery Act JAG Programs. For example, state-level
subrecipients, such as the Indiana Supreme Court, are able to obtain
reimbursements directly through the system without submitting claims to
the ICJI for review. Moreover, we believe the ICJI lacked sufficient staff to
adequately monitor its subrecipients’ grant activities, records, and reports.
These weaknesses are discussed in further detail later in the report.

High Risk Grantee Designation

       In June 2009, OJP designated the ICJI as a high risk grantee because
the ICJI was overdue on the repayment of an excess drawdown associated
with a 2004 award. As part of this high risk designation, ICJI staff was
required to take an OJP grant financial management training class within
1 year. OJP recovered the excess funds through an offset in September 2009
and removed the high risk designation. According to OJP staff, despite the
removal of the high risk designation, the ICJI still needed to fulfill the training
requirement. ICJI staff had been scheduled to attend the required training
class in February 2010. However, the class was postponed, and ICJI officials
stated that they completed the course in May 2010.




                                        6
Drawdowns

      Although JAG award recipients are permitted to draw down the entire
award amount in a lump sum and place the funds in an interest-bearing
account, the ICJI requested funding on a reimbursement basis. The ICJI’s
Financial Status Reports (FSR) indicated that, as of December 31, 2009,
grant expenditures totaled $4,407,334 for grants 2007-DJ-BX-0081,
2008-DJ-BX-0752, and 2008-DJ-BX-0018. However, as shown in Exhibit 2,
OJP records indicated that the ICJI had only drawn down grant funds totaling
$3,948,324 as of that date.

           EXHIBIT 2: DRAWDOWNS AND REPORTED EXPENDITURES
                                       Funds Drawn                Funds Expended
                                       Per OJP as of                Per FSR as of
            Grant Number            December 31, 2009            December 31, 2009
       2007-DJ-BX-0081                     $3,518,475                     $3,867,489
       2008-DJ-BX-0752                              0                            329
       2008-DJ-BX-0018                        429,849                        539,517
       2009-DJ-BX-0049                              0                              0
       2009-SU-B9-0047                              0                              0
                     Total                 $3,948,324                     $4,407,335
       Source: OJP Drawdown Schedules and ICJI Financial Status Reports

       The ICJI maintained separate accounts for each grant, including its
Recovery Act JAG award, to ensure grant funds maintained their separate
identity in the accounting records. According to ICJI representatives, when
local-level subrecipients submitted their reimbursement claims, ICJI staff
reviewed the grant accounts to ensure the subrecipients still had available
funds. ICJI staff then recorded the claims as pending in the grant records
and submitted those claims to the State Auditor’s Office for payment. 5 Upon
payment of the expenses, ICJI staff added the payment information to the
grant records and then requested reimbursement from OJP.

Program Income

      According to the OJP Financial Guide, all income generated as a direct
result of an agency-funded project shall be deemed program income. 6 The
OJP Financial Guide further states that program income must be used for the
purposes and under the conditions applicable to the award and be used for
allowable program expenses. If those conditions are not present, the funds
       5
          State-level agencies submit their reimbursement claims directly to the State
Auditor’s Office for payment. This practice is further discussed in the Management of Funds
section of the report.
       6
         The OJP Financial Guide states that for sub-awards on formula grants, the state is
responsible for determining if earned income is a direct result of the award.


                                               7
should be returned to the federal government. If a recipient was funded by
formula grants, program income must be reported on the FSRs and show the
cumulative and federal portion of program income earned from various
sources, such as forfeited assets, fees, tuition, and royalties. When
reporting program income, recipients should determine the percentage of
federal funds supporting their program and apply that same percentage to
the amount of federal program income earned. In addition to the OJP
Financial Guide, Federal Equitable Sharing Guidelines require that program
income generated from federal forfeitures be utilized in furtherance of the
program from which they were generated.

      Subrecipients for the 2007 and 2008 JAG awards informed the ICJI of
$1,038,261 in program income earned between January 1, 2008, and
December 3, 2009. According to the reports submitted, this was comprised
of $640,673 in federal program income and $397,588 in state program
income. However, the ICJI did not report any program income on its FSRs
to OJP and did not ensure that any program income earned was used in
furtherance of the JAG Program. The ICJI staff responsible for preparing the
FSRs stated that she was unaware that program income was supposed to be
reported to OJP. Subsequently, ICJI officials stated that they will report the
program income for all quarters and years for which it was not previously
reported.

       The 2007 and 2008 JAG awards under our review funded at least
100 drug task forces or police departments for the Advanced Criminal
Enforcement (ACE) program, which ICJI officials explained was primarily an
interstate drug interdiction program. In our experience, task forces and
police departments participating in this type of program may be involved in
the seizure of vehicles and cash. However, we found that 21 of these
entities reported earning either federal or state program income during our
review period.

      At our request, ICJI officials asked 70 drug task forces and police
departments participating in the ACE program to provide the amount of
funds they had earned through seizure and forefeiture during our review
period. Of the 53 entities responding, 23 reported earning a total of
$5,463,647 between January 2008 and December 2009.7 This amount
included $3,482,466 identified as federal income and $1,981,181 identified
as state income, which was significantly more than the $1,038,261 officially
reported as program income to the ICJI on the subrecipients’ quarterly


      7
         The remaining 30 responding subrecipients did not report any program income
during our review period.



                                            8
financial reports. 8 Consequently, there was at least $3,482,466 in possible
federal program income that was not reported to OJP, and we considered
this amount as potential enhanced revenue.

       In addition to the ICJI not forwarding to OJP subrecipient reports of
program income earned and the ICJI not ensuring that income was used in
furtherance of the JAG Program, ICJI officials informed us about a possible
inconsistency between a state statute and OJP guidelines regarding the use
of program income. According to Indiana statute IC 34-24-1-4: (2)(D), all
seizure income in excess of law enforcement costs is required to be
transferred to the state treasurer for deposit into the common school fund.
ICJI officials explained that they believed this statute also applies to all funds
earned through forfeiture actions initiated by drug task forces funded
through the JAG Program. As previously discussed, the OJP Financial Guide
requires all federal program income earned to only be used for allowable
program expenses and for the purposes and under the conditions applicable
to the award, or it should be refunded to OJP. Federal Equitable Sharing
Guidelines require that all income generated from federal forfeitures be
utilized in furtherance of the program. As a result, ICJI officials believe the
federal and state guidelines may be in conflict. According to ICJI officials, its
legal counsel has recently consulted with the Governor’s office about this
issue.

      In sum, we believe that the ICJI needs to: (1) ensure subrecipients
are properly identifying, reporting, and using program income in accordance
with the OJP Financial Guide, (2) appropriately report program income to
OJP; and (3) obtain official confirmation as to the applicability of the state
statute on JAG-funded activities.

Grant Expenditures

      The OJP Financial Guide serves as a day-to-day management tool for
award recipients and subrecipients in administering grant programs by
establishing the factors affecting the allowability, reasonableness, and


       8
          Because we did not have complete information about the subrecipients’ funding
sources, seizure efforts, or expenditure activities, we could not determine what portion of
the $3,482,466 earned pertained to the audited awards. Additionally, we could not
determine what percentage of those funds should or may have been applied to the
continuance of the program, and ICJI officials stated that they did not follow up with
subrecipients to determine if federal program income was used in the furtherance of the
ICJI-sponsored program or if it was utilized for some other purpose. Moreover, we did not
test the accuracy of the program income data or determine if other subrecipients also had
program income.




                                             9
allocability of both direct and indirect costs charged to DOJ grants. We
reviewed ICJI’s administrative costs charged to the 2007 JAG award,
including personnel costs, to determine if the expenses were accurate,
supported, and allowable under federal rules, regulations, and guidelines.
Additionally, we reviewed a sample of subrecipient transactions to determine
if they were properly authorized, classified, supported, and chargeable to the
2008 JAG and 2009 Recovery Act JAG awards.

        As discussed previously, the ICJI used most of its JAG awards to fund
sub-grants to state, local, and multi-jurisdictional agencies, departments,
offices, and task forces. Of the total $34,713,325 awarded under the 2007,
2008, and 2009 JAG awards, the ICJI retained $3,471,332 (or 10 percent) to
cover its costs of administering the sub-grants, such as paying for salaries
and fringe benefits of employees performing JAG-related duties, rent,
utilities, and office supplies. 9 According to ICJI officials, any cost identified
as being solely related to the JAG awards was charged in full to the JAG
grants. Costs such as personnel costs, which are associated with more than
one grant program, or costs such as utilities, which are not identified as
being specifically related to any grant program, were charged to the JAG and
other grants on an allocation basis.

      The ICJI’s practice was to charge administrative costs to the oldest
active JAG award. Once those funds were exhausted, the ICJI charged the
costs to the next oldest award. In early February 2009, the ICJI began
using its 2007 JAG award (grant 2007-DJ-BX-0081) to pay for its
administrative costs. As of December 31, 2009, $191,484 of the $541,540
the ICJI retained from that award was still available to pay JAG-related
administrative costs.

Personnel Expenses

      According to an ICJI official, salary and fringe benefit costs are
allocated to the JAG award based on the amount of time recorded by ICJI
employees to work associated with the JAG Program. To determine whether
salary and fringe benefit charges were accurate and supported, we
judgmentally selected for review the March 2009 salary and fringe benefit
costs charged to the 2007 JAG award. Specifically, we tested the accuracy
of the supporting time records and reports; recalculated the allocation of the

       9
          According to Byrne JAG guidelines, grantees may retain up to but not more than
10 percent of each year’s grant awards for administrating the JAG Program. Although
grantees are not required to submit budgets for administrative expenses, only those costs
directly associated with administering the program, enhancing overall program operations,
and ensuring compliance with federal requirements can be paid with the administrative grant
funds.


                                            10
salary and fringe benefit costs recorded in the payroll detail records; and
reviewed the elements of the salary and fringe benefit costs recorded in the
detailed payroll records to determine whether all of the allocated costs were
accurately charged to the grant and allowable under federal rules,
regulations, and guidelines.

      In general, we found that the salary and fringe benefit costs were
appropriately and accurately allocated to the ICJI's 2007 JAG award.
However, we noted that the salaries of some employees included an
incentive payment that is paid twice each year to ICJI employees who elect
to participate in a health wellness program. Our testing revealed that in
2009, these incentive payments totaled $4,537, of which $607 was allocated
to the 2007 JAG award. 10 According to ICJI management, the ICJI charged
its JAG grant a total of $939 for this same purpose in 2008.

      Because these payments were neither necessary nor reasonable for
the proper and efficient performance and administration of the grants under
our review, we believe that they were not an allowable cost and, therefore,
should not have been charged to the JAG grants and reimbursed by OJP. As
a result, we question the $1,546 charged to the JAG grants for these costs.

Other Direct Costs

      In addition to the ICJI’s personnel costs, ICJI staff stated that other
costs had been billed to grant 2007-DJ-BX-0081 using an allocation method.
These costs consisted of charges for various expenses, such as rent,
supplies, storage, and postage. Generally, the ICJI’s methodology for
allocating such costs to the JAG and other grants was to determine, on a
monthly basis, the number of active funding streams (such as the JAG
grant) and allocating an equal share to each source.




       10
          During our review we determined that the ICJI allocated the cost of the health
wellness program incentive to 10 different grant programs, including DOJ’s JAG, Victim
Assistance and Compensation, and STOP Violence Against Women Programs.


                                             11
       We tested $4,294 in non-personnel charges allocated from invoices
totaling $34,531 to determine whether the portion allocated to the JAG
program was accurate, supported, allowable, and allocable to the grant under
federal rules, regulations, and guidelines. We verified the type of expense,
evaluated the method used to allocate the cost, and recalculated the share of
the costs allocated to the 2007 JAG award. We found that the transactions
reviewed were properly authorized, classified, supported, and charged.

       When we discussed these allocated costs with ICJI staff, they told us
that the ICJI would prefer to charge these types of items as indirect costs.
Officials stated that the ICJI had attempted to obtain an indirect cost rate a
couple of years ago but that one had not been approved.

Contracting

      We tested two contract-related expenditures totaling $68,585 to
determine whether they were accurate, supported, allowable, and allocable
to the grant under federal rules, regulations, and guidelines. The amount
tested was 88 percent of the total contract-related expenses charged by the
ICJI to the 2007 JAG award. We found that the transactions reviewed were
properly authorized, classified, supported, and charged. We also verified
that the ICJI received the services stipulated in the contracts reviewed. The
contracts associated with the transactions tested did not require on-going
ICJI oversight. Because we tested 88 percent of the ICJI’s contract-related
costs and did not identify any issues, we determined that it was not
necessary to test the ICJI’s management of contractors.

Subrecipient Expenditures

      As of December 31, 2009, the ICJI had made 30 sub-awards with the
funding it received under grant 2008-DJ-BX-0018 and 34 sub-awards with
the Recovery Act funding it received under grant 2009-SU-B9-0047. 11 Only
six subrecipients of the ICJI’s 2009 Recovery Act sub-awards indicated they
had incurred costs as of this date, and none of the six had requested
reimbursement from the ICJI. Although not yet reimbursed, we selected a
judgmental sample of 55 transactions totaling $531,820 posted to the grant
ledgers of these 6 subrecipients under the 2009 Recovery Act JAG award to
determine whether the transactions were supported, accurate, and allowable
under federal rules, regulations, and guidelines. Additionally, we

       11
          On April 7, 2010, the ICJI provided us with an updated listing showing that it had
made a total of 61 sub-awards with the funding from grant 2008-DJ-BX-0018. Although all
61 sub-grants are shown in Appendix III, the additional 31 sub-awards were made after we
had concluded our transaction testing and, therefore, are not included in this section of our
report.


                                              12
judgmentally selected 204 transactions totaling $304,948 posted to the grant
ledgers of 10 subrecipients that received funds under grant
2008-DJ-BX-0018.

      In general, the subrecipient transactions we reviewed were properly
authorized, classified, supported, and charged to the 2008 JAG and
2009 Recovery Act JAG awards. However, one subrecipient was unable to
provide documentation to support expenses charged to its 2008 JAG sub-
award. Moreover, this subrecipient maintained only an unofficial record of
expenditures and never recorded grant costs in the official county records.
As a result, we question the entire $36,323 of this sub-award.

       In addition, we found that another subrecipient computed grant-
related salary costs based on the number of hours its employees worked,
not the number of hours for which they were compensated. 12 We also found
that this subrecipient used a single percentage rate to allocate fringe benefit
costs rather than calculating the costs according to its grant budget,
miscalculated the number of hours worked on two occasions, and charged
the grant for the partial salaries of more individuals than were approved in
the award. As a result, program costs for salaries and fringe benefits were
overstated in the grant ledger by $925. Representatives of the subrecipient
stated that the grant records would be corrected prior to requesting
reimbursement from the ICJI. Therefore, we are not questioning these
costs.

      We also identified a contractor who submitted a detailed invoice to this
subrecipient for work performed on multiple projects. Although the
subrecipient attempted to identify the charges specifically attributable to the
JAG award, the details provided in the invoice were not sufficient to fully
support the $2,689 recorded in the ledger as charged to the grant. Because
the subrecipient had not yet requested reimbursement for this transaction,
we are not questioning these costs.

Supplanting

      According to OJP, federal funds must be used to supplement existing
state and local funds for program activities and must not replace those funds
that have been appropriated for the same purpose. To determine whether

      12
          Employees had to request overtime pay or compensatory time off for any hours
they worked in excess of their normally scheduled hours. If they did not, they were not
compensated in either manner. During our review, we identified instances in which employee
time records indicated excess time was worked (and charged to the grant), but the
employee’s payroll record indicated that no extra compensation was received.




                                          13
the ICJI used grant funds to supplant existing state and local funds for
program activities, we interviewed local officials and reviewed the ICJI’s
state-approved budgets for FYs 2007, 2008, 2009, and 2010. Based on the
results of our review of the ICJI budget documents, we did not find any
indications that the ICJI was using grant funds to supplant local funding. As
shown in the following table, the ICJI’s budget remained relatively constant
between FYs 2007 and 2010, with a slight decline from FY 2008 to FY 2009,
and an increase in federal funding from FY 2008 to FY 2009. 13

EXHIBIT 3: COMPARISON OF ICJI STATE-APPROVED BUDGETS TO
           FEDERAL FUNDS
  DESCRIPTION                FY 2007           FY 2008         FY 2009            FY 2010

Budget ($)                    5,143,722        5,143,722       5,080,783          5,080,783
Federal Funds ($)            15,134,099      15,081,197 19,822,200 22,808,176
Source: The Indiana Office of Management and Budget (IOMB)

Management of Subrecipients

       As previously discussed, the ICJI develops long-range strategies for
the administration of Indiana's criminal and juvenile justice systems and
administers federal and state funds to carry out these strategies, including
funds awarded under the JAG and Recovery Act JAG Programs. According to
the OJP Financial Guide, grantees are responsible for ensuring that
subrecipients have an adequate accounting system. The OJP Financial Guide
also states that grantees should be familiar with and periodically monitor
their subrecipients’ financial systems, operations, records, and procedures.
Our concerns about the ICJI’s monitoring activities, including applicable
corrective actions being taken by the ICJI, are explained in the following
sections.

Solicitation Process

       According to an ICJI official, the ICJI solicited applications for funding
under grants 2007-DJ-BX-0081, 2008-DJ-BX-0018, and 2009-SU-B9-0047,
and provided 173 sub-awards totaling about $26 million to state and local
entities as of December 31, 2009. ICJI officials explained that during the
solicitation process, they post applications on the ICJI website, e-mail
applications to all current subrecipients, and provide applications to various
state associations, including the Indiana Sheriffs’ Association and Indiana
Chiefs of Police Association, for distribution. The ICJI’s timeline for the

      13
           The state of Indiana budget appropriations are approved bi-annually.


                                             14
solicitation of sub-awards under the JAG and Recovery Act JAG grants are
reflected in Exhibit 4.

EXHIBIT 4:     ICJI JAG SUB-AWARD SOLICITATION TIMELINES

Grant 2007-DJ-BX-0081
Date of the award acceptance by the ICJI                       July 3, 2007
Date of state-level solicitation to subrecipients       September 27, 2007
Date that applications were required to be returned       October 27, 2007

Grant 2008-DJ-BX-0018
Date of the award acceptance by the ICJI                   August 12, 2008
Date of state-level solicitation to subrecipients       September 22, 2008
Date that applications were required to be returned       October 31, 2008

Grant 2009-SU-B9-0047
Date of the award acceptance by the ICJI                        June 8, 2009
Date of state-level solicitation to subrecipients             June 17, 2009
Date that applications are required to be returned             July 17, 2009
Source: ICJI

Awards Process

      According to ICJI officials, the awarding process for subrecipients is as
follows:

1.    ICJI staff members review all applications for completeness and to
      identify the program area associated with the funding request. If an
      application is incomplete, it is not immediately denied. Instead, the
      applicant is contacted to provide the necessary information to continue
      the award process. Completed applications are formally scored by ICJI
      staff according to the procedures outlined in the solicitation. ICJI staff
      members then make recommendations on whether to fund the
      proposed activities.

2.    ICJI executive staff conducts a meeting to discuss completed and
      scored applications and generate its list of recommended
      subrecipients, including the amount of each proposed sub-award.

3.    The relevant applications and ICJI management’s recommendations
      are forwarded to the ICJI Board of Trustees. The ICJI Board of
      Trustees makes the final selection of subrecipients, including the
      amount of funding for each sub-award. The final list of approved
      subrecipients is returned to the ICJI, and the ICJI notifies the relevant
      subrecipients and processes the sub-awards.



                                           15
       Based on the process described above, we believe that the ICJI's
method for funding JAG Program applications is fair and reasonable. We also
reviewed the solicitations for grants 2007-DJ-BX-0081, 2008-DJ-BX-0018,
and 2009-SU-B9-0047 and determined that they accurately and fully
described the grant program and its requirements. Additionally, we found
that, in general, the ICJI promptly issued sub-awards under these grants to
various state and local entities. 14 However, we noted that as of
December 31, 2009, the ICJI had not distributed sub-awards for the funding
it had received under JAG awards 2008-BJ-BX-0752 (which was accepted by
the ICJI on October 3, 2008) and 2009-DJ-BX-0049 (which was accepted on
August 27, 2009). ICJI staff stated that processing the Recovery Act JAG
award took precedence over these other grants. Therefore, the issuance of
sub-awards under these particular grants was delayed.

      We reviewed a sample of 20 subrecipient applications for sub-award
funding under grants 2008-DJ-BX-0018, 2009-DJ-BX-0049, and
2009-SU-B9-0047 – 10 applications approved for funding and
10 applications denied for funding. For each application, we requested the
scoring sheet used in the evaluation of subrecipient applications. We found
that the ICJI appeared to have followed the policies outlined above for
funding applications under the grants.

Training and Technical Assistance

       ICJI staff stated that the ICJI conducts an annual day-long training
seminar every fall and requires all current subrecipients (preferably the
grant manager and financial staff) and suggests that those with pending
grant proposals should attend. ICJI staff explained that the ICJI conducts
this training late in the award year so that potential subrecipients have the
opportunity to ask questions and, in turn, obtain the necessary instruction to
submit the best application possible. At the end of the day-long seminar,
the ICJI requests participants to fill out an unsigned questionnaire. This
questionnaire is intended to help the ICJI improve its future training courses.

      We reviewed the training curriculum from the most recent training
session provided by the ICJI and noted that only 21 percent of the session
addressed subrecipients’ day-to-day responsibilities. Based upon our
examination of the training materials, we determined that:


       14
           Regardless of the date accepted by the grantee, we noted that OJP retroactively
backdated the grant period. The 2009 Recovery Act JAG award was backdated to March 1,
2009, while the non-Recovery Act JAG awards were backdated to begin at the start of the
federal fiscal year.



                                             16
      •   59 percent of the training covered background information and
          actions related to applying for an award;

      •   21 percent related to day-to-day grant management, such as
          reporting procedures and how and what records and supporting
          documentation should be maintained;

      •   5 percent related to ICJI monitoring;

      •   13 percent related specifically to the Recovery Act; and

      •   1 percent related to course administrative information.

       All of the subrecipients we asked confirmed that someone from their
staff attended the annual training seminar. Despite having received this
training, several of these subrecipients explained that it would be beneficial
if the ICJI had provided them with published guidance on grant management
and corresponding record-keeping and reporting requirements. They further
stated they did the best they could and assumed that if the ICJI did not
contact them, they had adequately met their grant requirements. Similarly,
the JAG program manager stated that unless subrecipients contacted the
ICJI with questions or requested assistance, the JAG program manager
assumed that the subrecipients understood all of their grant requirements.
After discussing our concerns about the minimal nature of training
specifically covering grant management, as well as the subrecipients’
comments to us, ICJI officials stated that all ICJI grant managers will be
required to contact all subrecipients on a quarterly basis and offer training
assistance. In addition, ICJI officials commented that they are in the
process of developing a grant management manual for subrecipients.

Management of Funds

      Generally, the subrecipients receiving JAG-funded awards from the
ICJI received their grant funds on a reimbursement basis. These
reimbursement requests from local entities were made via claim vouchers
submitted to the ICJI with the entities’ quarterly financial reports. In
contrast to local entities, state agencies submitted their reimbursement
requests directly to the state.

      In reviewing grant records, we noticed that subrecipient
reimbursement claims submitted in the last quarter of 2009 were not being
paid in a timely manner. The 101 subrecipient reimbursement claims
submitted during the first 9 months of 2009 were paid, on average, within
8 days. However, it took an average of 39 days to pay the 49 subrecipient


                                      17
reimbursement claims submitted between October 1 and December 31,
2009, including 20 claims that were not paid for 2 to 4 months after
submission.

       In our opinion, delays in the payment of subrecipient reimbursement
requests can cause an interruption in services being provided by the
subrecipients to the extent of jeopardizing the on-going life of funded
programs. To date, one subrecipient (a drug task force) cited the delay in
reimbursement as the reason for disbanding its operations, while officials
from two other subrecipients, both of which were drug court programs,
stated they would soon have to interrupt services provided to clients if they
were not reimbursed in a more timely fashion. Officials from the two drug
court programs explained that their local county governments were able to
pay the costs up-front until receiving reimbursement by the state. However,
their counties have experienced significant budget cuts and can no longer
afford to do this for an extended period of time.

      When we discussed these reimbursement delays with ICJI officials,
they attributed the delays to the new accounting system implemented by the
state of Indiana in September 2009. The new system requires all claim
vouchers to have purchase order numbers. As a result, purchase order
numbers had to be assigned to the sub-grants before the claims could be
processed. According to ICJI representatives, this issue has been resolved,
and subrecipients are once again being reimbursed in a timely manner.

       Unlike the delays discussed above, which were local agency
subrecipients, state agencies did not appear to experience delays in
reimbursement. ICJI management explained that state agencies submit
their reimbursement requests directly to the State. However, the State does
not obtain approval from the ICJI before paying these claims, thus by-
passing the ICJI’s voucher review process. Additionally, since the
accounting system change-over in September 2009, the ICJI is no longer
notified when state agency claims are paid. Consequently, this practice has
affected the accuracy of the ICJI’s grant records. ICJI officials informed us
that they are currently working to address this situation.

Monitoring

      Grant monitoring is an essential tool to ensure that grant programs are
implemented, objectives are achieved, and grant funds are properly
expended. To this end, OJP requires that sub-awards be monitored
throughout the life of the grant to ensure that: (1) the subrecipient complies
with the programmatic, administrative, and fiscal requirements of the
relevant statutes, regulations, policies, and guidelines; (2) programs initiated


                                      18
by the subrecipient are carried out in a manner consistent with the relevant
statutes, regulations, policies, and guidelines of the program; (3) the
subrecipient is provided guidance on policies and procedures, grant program
requirements, general federal regulations, and basic programmatic,
administrative, and financial reporting requirements; and (4) any problems
that may impede the effective implementation of grant programs are
identified and resolved.

       Under grants 2007-DJ-BX-0081, 2008-DJ-BX-0018, and
2009-SU-B9-0047, the ICJI made 173 sub-awards, totaling about $26 million,
to subrecipients. Although the ICJI had an overall agency policies and
procedures manual, it did not have a handbook detailing grant manager
practices or any requirement for the development of an annual action plan of
oversight duties to be performed, such as how many subrecipients the ICJI
will visit and how the subrecipients will be selected for a visit. During our
review, we identified several issues and practices that caused us to question
the adequacy of the ICJI’s monitoring and oversight of subrecipients. These
issues included insufficient staffing, lack of documented policies and
procedures for the ICJI JAG program manager and subrecipients, and failure
to obtain and review documentation supporting subrecipient reports and
reimbursement requests. These deficiencies are discussed in detail below.

       Staffing and Responsibilities – In our opinion, the ICJI lacked adequate
staff to properly oversee and manage the JAG awards. During our review
period, the ICJI had one program monitor assigned to oversee the
139 subrecipients under the 2007 and 2008 JAG awards, as well as the
34 subrecipients under the 2009 Recovery Act JAG award. Although the
ICJI’s grant applications for the past 2 years indicated that additional staff
would be hired to monitor and oversee subrecipients, the ICJI was unable to
do so because of a state-wide hiring freeze. Further, the individual who was
overseeing the JAG Program is no longer employed by the ICJI, and no new
employee had been hired to specifically assume the oversight responsibilities
of the ICJI’s JAG-funded programs.

      Further, although ICJI officials explained the ICJI’s processes for
administering the JAG awards and monitoring the sub-recipients’ use of JAG
funds, these monitoring processes were not formally documented. As a
result, there was a greater risk that certain processes may be overlooked or
not consistently performed. Without documented procedures, variations in
the depth and type of monitoring and oversight activities could occur, while
the importance of other responsibilities could be overlooked and certain
tasks would not be performed. ICJI management agreed that its procedures
should be documented and stated they are developing a grant manager
handbook.


                                      19
      Subrecipient Management Guidelines – The ICJI did not have an
established policies and procedures manual for subrecipients to use in
managing their awards. In addition, the standard special conditions of the
sub-awards did not inform subrecipients that they were required to comply
with OJP’s guidelines. Subrecipient officials we interviewed stated that they
did what they thought was necessary and expected ICJI staff to contact
them, as needed, for additional information or if they were not complying
with any requirements. After discussing this concern with the ICJI, ICJI
management stated they were developing a grant manual for subrecipients.

       On-site Monitoring Activities – ICJI staff stated that the duration of an
on-site subrecipient visit was generally 1 day. During our 39-month review
period, ICJI documentation indicated that the ICJI had only conducted site
visits at 21 of the 139 sub-awards under the 2007 and 2008 JAG awards,
which equates to less than 1 per month.

       In addition, there was little evidence in the ICJI’s files that the site
visits performed included a review of the financial operations and records of
the subrecipients, the identification of any problems and necessary
corrective actions, or follow-up to ensure that identified problems had been
resolved. For example, one subrecipient received a site visit related to its
2007 JAG-funded sub-award. At that time, it was noted that the
subrecipient’s program had few participants and that the award lacked the
specifics necessary to measure program goals and objectives. As a result,
the ICJI recommended the subrecipient develop more measurable grant
objectives. The subrecipient never responded to the recommendation, yet
the ICJI awarded additional funds to this subrecipient under the 2008 JAG
award.

       In May 2009, the ICJI conducted a second monitoring visit of this
subrecipient and noted the same problems. When we conducted our testing
at this subrecipient in January 2010, we found that the subrecipient still had
not responded to the ICJI’s second request to provide updated goals and
objectives. Further, although this subrecipient received funding under at
least three grants (2006, 2007, and 2008), it did not appear that the ICJI
ever asked the subrecipient whether it maintained a separate account for all
grant expenditures and reimbursements until September 2009. At that
time, subrecipient officials responded that they did not.

      The ICJI’s May 2009 site visit report for this subrecipient also
concluded that the entity was in compliance with federal guidelines.
However, during our review we found that the subrecipient had a simple
time tracking system that did not comply with OJP’s requirements for
documenting personnel charges of employees who do not spend 100 percent


                                       20
of their time on the grant project. Finally, officials from this subrecipient
stated that a representative from a local news outlet had approached them
and stated that the ICJI had informed the news outlet that the subrecipient’s
funding had been frozen. According to the subrecipient officials, they had
not received any such notification from the ICJI. Although ICJI staff
asserted that they had notified this subrecipient about the freezing of funds,
they were unable to provide documentation to support this assertion. ICJI
management stated that they are revising the on-site monitoring checklist to
include more financial and internal control questions.

      Subrecipient Submissions – Although the ICJI’s general policy manual
required ICJI staff to review subrecipient supporting documents submitted
with reimbursement claims, the ICJI did not require its subrecipients to
submit any supporting documentation with their reimbursement requests.
Instead, the ICJI simply paid subrecipients the amounts reflected on their
submitted claims. As previously discussed, our review of subrecipient
expenditures revealed unsupported costs. Because the ICJI was not
requiring its subrecipients to provide supporting documentation, ICJI
personnel were not in the position to identify any subrecipient transactions
as unallowable or unsupported. ICJI management agreed with our concerns
and stated that, effective immediately, they will require subrecipients to
provide supporting documentation with their reimbursement requests.

       Further, ICJI did not review or follow up with subrecipients when its
required forms or reports contained missing, incomplete, erroneous, or
questionable information. For example, we visited five subrecipients of the
2009 Recovery Act JAG award and found that as of March 2010, three had
not filed the quarterly financial report for the period ended December 31,
2009, which were due in January 2010. While on-site, all three
subrecipients took immediate corrective action and filed the reports with the
ICJI. In another example, we identified several subrecipients that received
reimbursement over 3 months after their award period ended.

       We also found that although subrecipients provided the ICJI with
copies of their single audits, ICJI personnel did not review them unless they
later identified a problem with a subrecipient. Additionally, subrecipients
were not required to provide copies of any other internal or external audits
and reviews that may contain findings on overall internal control weaknesses
or deficiencies that could affect the subrecipients’ management and
oversight of their JAG sub-awards. By not performing these reviews, we
believe the ICJI is missing an opportunity to identify subrecipients that
represent an increased risk. ICJI management concurred and stated such
reviews should have been occurring and will make this a requirement going
forward.


                                     21
       Review of Subrecipient Applications and Budgets – OJP guidelines state
that the recipient should ensure that each subrecipient prepares an adequate
budget on which its award commitment will be based. ICJI staff approved
numerous subrecipient budget proposals wherein the salary terms were
vaguely worded and were an open-ended portion of the employee’s total
activity. In one instance, the ICJI approved a subrecipient budget where it
was estimated that one employee would work approximately 1 extra day
each week and would receive approximately an additional one-half of that
employee’s salary costs. The information provided in this and other
subrecipient budgets raise questions as to the reasonableness of the
projected costs when compared to the associated level of activity dedicated
to the funded project. In another instance, ICJI staff reviewed and approved
a subrecipient’s budget revisions even though the document was incorrectly
prepared and contained mathematical errors. Finally, another subrecipient’s
documentation indicated that the proposed project involved developing a
training video on moving surveillance and the subrecipient intended to sell
the video to other law enforcement agencies after providing the training to
Indiana law enforcement officers.

       We believe that the ICJI needs to more carefully review subrecipient
documentation to ensure mathematical accuracy and that that applications
contain specific information on the amount of work to be performed and the
rate of compensation to be paid. The ICJI should also be alert to proposals
that involve the development of publications or other materials that will be
distributed to others to ensure that OJP’s guidelines for such items are
adhered to and to notify OJP of matters that could be of nationwide benefit.

Reporting

       According to the OJP Financial Guide, award recipients are required to
submit both financial and program reports. These reports describe the
status of the funds and the project, compare actual accomplishments to the
objectives, and report other pertinent information. OJP also requires
grantees to submit metric information via an online program called the
Performance Measurement Tool (PMT). Additionally, grantees receiving
Recovery Act funds are required to submit specific information to
FederalReporting.gov, which is subsequently posted on Recovery.gov.
Finally, OJP requires grantees to submit Equal Employment Opportunity
Program (EEOP) reports, for which we verified submission and timeliness.
Details of our review, including our examination of a sample of the ICJI’s
FSRs, Annual Progress Reports, PMT reports, Recovery Act Reports, EEOP
reports, and our analysis of the ICJI’s efforts to ensure accurate and timely
reporting from its subrecipients, are found in the following sections.



                                     22
Subrecipient Reporting

       According to ICJI documentation, subrecipients are notified of various
financial and program reporting requirements as early as the grant
solicitation announcement. These requirements are also articulated in the
grant award notification documents and are discussed during the initial grant
training sessions. Moreover, the ICJI grant manager stated she sends
e-mail reminders to subrecipients regarding any overdue reports. We
believe that the ICJI’s process for managing subrecipient reporting generally
ensured that subrecipients submitted timely and accurate reports. However,
we identified some deficiencies, which are explained in the following
sections.

Financial Status Reports

      According to the OJP Financial Guide, quarterly FSRs are due no later
than 45 days after the end of the quarter, with the final FSR due within
90 days after the award end date. We reviewed the timeliness of the last
five FSRs submitted during our review period for grants 2007-DJ-BX-0081,
2008-DJ-BX-0018, 2008-DJ-BX-0752, and 2009-DJ-BX-0049, and the only
four FSRs for grant 2009-SU-B9-0047. Based on our review, we found that
the ICJI submitted each report in a timely manner.

      We also reviewed each FSR to determine whether the reports
accurately reflected expenditures incurred during the reporting period and
cumulatively. In general, we were able to reconcile the reports to the ICJI’s
grant ledgers and found that most sections of the FSRs were accurate.
However, we noted that three Recovery Act subrecipients had not filed their
December 31, 2009, quarter end financial report. Each of these
subrecipients subsequently submitted their quarterly financial reports to the
ICJI. Because the ICJI only records expenditures when reimbursement claim
vouchers are submitted and these subrecipients had not submitted any claim
vouchers, the missing quarterly financial reports did not affect the accuracy
of the expenditure information reported to OJP.

      As previously discussed, we also found that the ICJI did not report
program income on the FSRs submitted to OJP even though the quarterly
financial reports from some subrecipients reflected program income. ICJI
personnel responsible for preparing the FSRs stated that they were not
aware that program income earned should have been included on its FSRs.




                                     23
Annual Progress Reports

      OJP requires state JAG recipients to submit annual progress reports.
For FY 2008 and prior, the permanent annual reporting period for all state
JAG awards was January 1 through December 31, with reports due
March 31. For FY 2009 and forward, including Recovery Act JAG grants, state
recipients must submit annual progress reports and quarterly PMT reports.
The annual progress reporting period is the award start date through
September 30, with reports due November 29. The quarterly PMT reports are
due on the 30th of the month following the close of a quarter. State
recipients may use the four PMT reports to satisfy the annual reporting
requirement by uploading the reports into the OJP Grant Management
System.

       We reviewed ICJI’s calendar year (CY) 2007 and 2008 annual reports
for grants 2007-DJ-BX-0081 and 2008-DJ-BX-0018. We noted that the
reports were generally accurate, submitted timely, and were filed utilizing the
required Performance Report form. However, we found that the ICJI
significantly underreported three metrics on its CY 2008 annual report for
grant 2007-DJ-BX-0081. Specifically, the number of methamphetamine-
related arrests was underreported by 705, the amount of methamphetamine
seized was underreported by at least 2,763 grams, and the street value of
methamphetamine seized was underreported by at least $785,917. While
ICJI staff knew about the data inaccuracies prior to our audit, they had not
notified OJP of the errors. An ICJI staff member opined that the
inconsistencies were caused by a lack of clarity on the subrecipient quarterly
reporting forms for drug task forces, which were totaled for the annual
report. To improve accuracy, the ICJI provided a revised form to
subrecipients during CY 2008. However, all subrecipients did not use the new
form that year. Although it appeared that the drug task forces were
generally using the new form for CY 2009, we were unable to confirm this
because the CY 2009 annual report was not yet due or prepared at the time
of our audit fieldwork.

Performance Measurement Reports

       Beginning in FY 2009, the Annual Performance Reports, including
those required for the Recovery Act JAG grants, were replaced by an annual
Performance Measurement Report, which is a compilation of the data
reported on the Bureau of Justice Assistance (BJA) Quarterly PMT. The
annual reporting period for the Performance Measurement Report is from the
award start date through September 30, with reports due November 29.
After the first year, the Performance Measurement Report becomes an
annual report. According to ICJI officials, the FY 2009 fourth quarter report


                                     24
was filed by the ICJI and by all subrecipients. However, because the report
was not dated and we do not have access to the PMT system, we could not
confirm the submission date.

Quarterly Recovery Act Reports

       In addition to standard reporting requirements, grantees receiving
Recovery Act funding must also submit quarterly reports, which require both
financial and programmatic data specific to Recovery Act activities.
According to BJA and OMB guidance, Recovery Act Reports are due 10 days
after the close of each quarter. 15

      We reviewed the first two Recovery Act Reports for timeliness and
found that the ICJI and its subrecipients submitted each report in a timely
manner. ICJI officials explained that in order to have timely completion and
submission of the quarterly Recovery Act Reports, subrecipients are required
to submit the necessary information to the Indiana Office of Management
and Budget (IOMB) on the third day of the month following the end of the
quarter. The IOMB compiles this data for all state organizations and their
subrecipients and submits the information to FederalReporting.gov.

       Because the ICJI had only made three sub-awards under the
2009 Recovery Act JAG award as of September 30, 2009, and none of the
subrecipients had submitted claim vouchers for expended funds, the
Recovery Act Report for the period ended September 30, 2009, contained
very little information. Although the remaining 31 sub-awards were
executed during October 2009, there were very few subrecipient
expenditures during the fourth quarter of 2009. Thus, the Recovery Act
Report for the quarter ended December 31, 2009, listed the subrecipients as
active, but also showed no funds as having been disbursed to subrecipients.

       According to OMB guidance, the reports aim to provide transparency
into the use of these funds. The Recovery Act Reports are required to
include the following information.

       •      Total amount of funds received and the amount of funds spent
              on projects and activities.




       15
         According to FederalReporting.gov guidance, the recipient reporting due date of
January 10, 2010, for the quarter ended December 31, 2009, was extended to
January 22, 2010.



                                            25
      •      A list of those projects and activities funded by name, including a
             description, completion status, and estimates on jobs created or
             retained.

      •      Details on sub-awards and other payments.

      In the Recovery Act Reports, the data pertaining to jobs created and
retained is reported as Full Time Equivalents (FTE). According to OMB
Memorandum 10-08, dated December 18, 2009, the formula for calculating
FTEs is represented as follows:

     TOTAL NUMBER OF HOURS WORKED                 QUARTERLY HOURS
      AND FUNDED BY RECOVERY ACT           ÷       IN A FULL-TIME       =      FTES
                                                              16
       WITHIN REPORTING QUARTER                     SCHEDULE


      In its original January 8, 2010, Recovery Act Report submission for the
period of October 1, 2009, through December 31, 2009, ICJI reported
12.60 FTEs created or retained. An ICJI official stated that because all
quality reviews are done by the IOMB, they do not verify the accuracy of
subrecipient data before its submission.

       We reviewed the Recovery Act Report for the fourth quarter of CY
2009 for accuracy. Specifically, to verify the total number of FTEs reported
by the ICJI, we requested the values used to calculate FTEs from all
subrecipients that reported values for jobs created or retained and confirmed
that the total FTEs reported for this quarter were correct. In addition to
verifying the accuracy of the number of FTEs created or retained, we also
reviewed the sub-award amounts, as well as the list of reported Recovery
Act projects and activities. We found that the ICJI double counted three
subrecipients, which resulted in an overstatement of sub-awards made by 3
and in total funds awarded by $5,773,533.

Equal Employment Opportunity Program (EEOP) Reports

       The ICJI was required to complete and submit Section A of the EEOP
Certification Form to OJP within 60 days after receiving an award. An ICJI
official was unable to provide evidence that it had ever submitted this
certification form for any of the 5 grants under review, did not recall ever
preparing the form, and did not recall ever being notified by OJP that it was
delinquent. OJP confirmed that it had no certifications on file for FYs 2007,
2008, or 2009. The 5 award certifications were between 2 and 28 months

      16
           OMB Memorandum 10-08 describes the calculation for Quarterly Hours in a
Full-time Schedule as 520 hours (2,080 hours annually divided by 4 quarters).



                                           26
overdue when ICJI officials took immediate corrective action and filed the
missing forms with OJP.

       In addition, the ICJI is required to ensure that subrecipients file the
appropriate EEOP reports. ICJI officials stated this is not part of the
subrecipient award conditions and ICJI staff had never requested this
information from JAG subrecipients. Consequently, they did not know which,
if any, of its 173 subrecipients were in compliance with this filing
requirement. An ICJI official stated that they will add questions to ICJI’s
grant monitor site visit questionnaire to ensure compliance in the future.

Program Performance and Accomplishments

       The main objective of the JAG grants, as stated within the grant
notifications, is to enable states, tribes, and local governments to support a
broad range of activities to prevent and control crime based on state and
local needs and conditions. In collaboration with its many subrecipients, the
ICJI worked to accomplish its JAG Program’s seven goals, which are to
improve:

   •   A - LAW ENFORCEMENT PROGRAMS
   •   B - PROSECUTION AND COURT PROGRAMS
   •   C - PREVENTION AND EDUCATION PROGRAMS
   •   D - CORRECTIONS AND COMMUNITY CORRECTIONS PROGRAMS
   •   E - DRUG TREATMENT AND ENFORCEMENT PROGRAMS
   •   F - PLANNING, EVALUATION, AND TECHNOLOGY IMPROVEMENT PROGRAMS
   •   G - CRIME VICTIM AND WITNESS PROGRAMS


     To evaluate program performance under grants 2008-DJ-BX-0018 and
2009-SU-B9-0047, we interviewed an ICJI official regarding the expected
program outcomes. Generally, we found that both the ICJI and its
subrecipients are accomplishing the grants’ objectives.

      However, for grant 2008-DJ-BX-0018, although the ICJI’s solicitation
cited all seven project areas, an ICJI official stated they did not receive any
applications in two of the areas – Corrections and Community Corrections
Programs and Crime Victim and Witness Programs. The remaining five grant
objectives were met through the funding of subrecipients that were primarily
based in law enforcement, including drug task forces, prosecutors offices,
and drug courts.

      According to the purpose statements in the grant solicitations created
by the ICJI, we found that the ICJI utilized grant 2008-DJ-BX-0018 to
address the following areas:



                                       27
    •   MULTI-JURISDICTIONAL DRUG TASK FORCES WITH A COLLABORATIVE AND
        COMPREHENSIVE DRUG CONTROL STRATEGY THAT INCLUDES: UNDERCOVER
        INVESTIGATION, DIRECTION, AND CONTROL OF CONFIDENTIAL INFORMANTS; DRUG
        INTERDICTION EFFORTS; AND PROSECUTORIAL SUPPORT;

    •   DRUG AND ALCOHOL COURT PROGRAMS THAT PROVIDE COMPREHENSIVE TREATMENT
        SERVICES AND MONITORING OF OFFENDERS;

    •   PROSECUTION OF DRUG AND VIOLENT OFFENDERS;
    •   IMPLEMENTATION OF REENTRY PROGRAMMING FOR OFFENDERS RETURNING FROM PRISON
        TO LOCAL COMMUNITIES;
    •   ENHANCEMENT OF JUVENILE DETENTION ALTERNATIVES TO INCARCERATION AND
        DISPROPORTIONATE REPRESENTATION; AND
    •   EXPANSION OF THE ADVANCED CRIMINAL ENFORCEMENT (ACE) INITIATIVE INTO
        MULTI-JURISDICTIONAL CRIMINAL INTERDICTION TASK FORCES FOCUSING ON
        INTERSTATE, HIGHWAY, AND HOTEL/MOTEL INTERDICTION.



      As shown in Exhibit 5 and in Appendix III, we determined the 2008
JAG funds that were awarded and expended by subrecipients within each
JAG Program goal area mentioned.

EXHIBIT 5: GRANT 2008-DJ-BX-0018 EXPENDITURES BY PURPOSE AREA




Source: OIG analysis of ICJI data

      Further, an ICJI official stated that the overall expected program
outcomes for the 2009 Recovery Act JAG award were job retention and job
creation in the following four JAG purpose areas:




                                         28
    •   MULTI-JURISDICTIONAL DRUG TASK FORCES WITH A COLLABORATIVE AND
        COMPREHENSIVE DRUG CONTROL STRATEGY THAT INCLUDES: UNDERCOVER
        INVESTIGATION, DIRECTION, AND CONTROL OF CONFIDENTIAL INFORMANTS; DRUG
        INTERDICTION EFFORTS; AND PROSECUTORIAL SUPPORT;

    •   PROSECUTION OF DRUG AND VIOLENT OFFENDERS;
    •   DRUG AND ALCOHOL COURT PROGRAMS THAT PROVIDE COMPREHENSIVE TREATMENT
        SERVICES AND MONITORING OF OFFENDERS; AND
    •   REENTRY PROGRAMS THAT UTILIZE EVIDENCE-BASED PRACTICES.


      As shown in Exhibit 6 and described in Appendix IV, we determined
the 2009 Recovery Act JAG funds were obligated to subrecipients within the
purpose areas mentioned.

EXHIBIT 6: GRANT 2009-SU-B9-0047 OBLIGATED BY PURPOSE AREA




Source: OIG analysis of ICJI data

      The ICJI awarded $19,505,918 in Recovery Act JAG funding to
34 subrecipients aimed at addressing the specified purpose areas
established in the grant applications. After reviewing the dollar amounts
awarded and expended in each purpose area, as well as a description of
each subrecipients’ award, we believe the ICJI adequately addressed its
mission of improving and supporting programs related to law enforcement;
prosecution and courts; prevention and education; corrections and
community corrections; drug treatment and enforcement; planning,
evaluation, and technology improvements; and crime victims and witnesses.




                                         29
Conclusion

      After reviewing the ICJI’s accounting records, FSRs, Progress Reports,
Recovery Act reports, and operating policies and procedures, we found that
in general, the ICJI adequately accounted for grant funds received, sub-
grants awarded, and its use of grant funds for administrative expenditures
from grants 2007-DJ-DX-0081, 2008-DJ-BX-0018, and 2009-SU-B9-0047.
However, we identified deficiencies in internal controls, reporting, monitoring
and oversight of subrecipients, instances of unallowable expenses in grant
administrative costs, and unsupported subrecipient expenditures, as well as
record-keeping and reporting deficiencies. As a result, we identified $37,869
in questioned costs and $3,482,466 in potential enhanced revenue.

Recommendations

We recommend that the Office of Justice Programs:

1.    Work with the ICJI to determine how the ICJI should account for
      program income, including a consideration of the potential
      inconsistency between Indiana state law and OJP guidelines.

2.    Ensure the ICJI reports program income to OJP, including any
      unreported program income previously earned by subrecipients. This
      should include ensuring that the ICJI’s subrecipients are reporting
      program income to the ICJI and that program income earned by the
      subrecipients is being used in the furtherance of the grant programs,
      including the $3,482,466 reported as earned by subrecipients under
      the 2007 and 2008 JAG awards between January 2008 and
      December 2009.

3.    Direct the ICJI to remedy the $1,546 in health care incentives
      allocated to its JAG awards and reimbursed by OJP.

4.    Direct the ICJI to remedy the $36,323 in unsupported subrecipient
      expenditures that were reimbursed by OJP.

5.    Require the ICJI to establish and implement procedures that ensure
      subrecipients’ reimbursement requests are adequately supported,
      timely reviewed, and paid promptly, and that reimbursement requests
      from state-level subrecipients are reviewed and approved prior to
      payment.

6.    Ensure the ICJI assigns and trains adequate staff to monitor and
      oversee JAG and Recovery Act JAG awards.


                                      30
7.    Ensure the ICJI develops a procedures handbook for ICJI grant
      program management that articulates responsibilities for administering
      the JAG and Recovery Act JAG awards. The manual should specifically
      address the monitoring and oversight of subrecipients, including the
      review of subrecipient supporting documentation, conducting
      subrecipient site visits, providing training and technical assistance, and
      obtaining and analyzing external audits and reviews of subrecipients to
      identify problems and issues that may affect JAG-funded awards.

8.    Ensure the ICJI has developed a grant procedures manual for
      subrecipients that provides guidance on all aspects of accounting for,
      managing, and reporting on JAG and Recovery Act JAG awards, and
      ensure that this manual is disseminated to all subrecipients.

9.    Direct the ICJI to ensure that subrecipient applications (and any
      subsequent budget revisions) contain sufficient details to identify
      program activities and the reasonableness of associated costs.

10.   Request the ICJI to submit a revised annual progress report to
      accurately reflect program activities and metrics.

11.   Direct the ICJI to verify the accuracy of subrecipient data reported to
      the Indiana Office of Management and Budget prior to the Indiana
      Office of Management and Budget submitting the required Recovery
      Act Reports to FederalRecovery.gov.

12.   Ensure the ICJI submits a revised fourth quarter 2009 report to
      FederalRecovery.gov that corrects its initial overstatement of certain
      information.




                                      31
                                                                           APPENDIX I



              OBJECTIVE, SCOPE, AND METHODOLOGY

      The purpose of our audit was to determine whether costs claimed
under these grants were allowable, reasonable, and in accordance with
applicable laws, regulations, guidelines, and terms and conditions of the
grant. The objective of our audit was to review performance in the following
areas: (1) grant requirements; (2) internal control environment; (3) cash
management; (4) program income; (5) grant expenditures; (6) supplanting;
(7) management of subrecipients and contractors; (8) Financial Status
Reports (FSR), Progress Reports, and Recovery Act Reports; and
(9) program performance and accomplishments.

      We conducted this performance audit in accordance with generally
accepted government auditing standards. Those standards require that
we plan and perform the audit to obtain sufficient, appropriate evidence
to provide a reasonable basis for our findings and conclusions based on
our audit objectives. We believe that the evidence obtained provides a
reasonable basis for our findings and conclusions based on our audit
objectives.

      Between October 1, 2006, and December 31, 2009, the ICJI was
awarded five JAG awards totaling $34,713,325. Our audit scope covered the
Recovery Act JAG grant (2009-SU-B9-0047) and the most recent JAG grants
(2007-DJ-BX-0081 and 2008-DJ-BX-0018) that had sufficient expenditures
to appropriately test both grantee and subrecipient transactions. 17

      We tested compliance with what we consider to be the most important
conditions of the grants. Unless otherwise stated in our report, the criteria
we audit against are contained in the OJP Financial Guide and the award
documents.

       In conducting our audit, we performed sample testing in five areas,
which were grant expenditures, including payroll; management of
subrecipients; FSRs; Progress Reports; and Recovery Act Reports. In this
effort, we employed a judgmental sampling design to obtain broad exposure
to numerous facets of the grants reviewed, such as dollar amounts or
expenditure category. For JAG grant 2007-DJ-BX-0081, we selected
samples of 12 non-personnel grant expenditures, personnel costs of all

       17
          Because there were less than $300 in administrative expenses billed to the 2008
and 2009 JAG awards at the time of our review, we tested the administrative expenses
charged under the 2007 JAG award. We conducted the subrecipient expenditure testing on
the 2008 JAG and 2009 Recovery Act JAG awards.


                                            32
14 ICJI employees who charged time to the grant during March 2009, the
5 most recent FSRs, and the 3 most recent progress reports. For JAG grant
2008-DJ-BX-0018, we selected samples of 204 subrecipient grant
expenditures, the 5 most recent FSRs, and the most recent progress report.
For JAG grant 2009-SU-B9-0047, we selected samples of 55 subrecipient
grant expenditures, the 4 most recent FSRs, the most recent progress
report, and the 2 most recent quarterly Recovery Act reports. This
non-statistical sample design does not allow for projection of the test results
to the universes from which the samples were selected.

      In addition, we assessed the grantee’s monitoring of subrecipients;
reviewed the timeliness and accuracy of FSRs, Progress Reports, and
Recovery Act Reports; and evaluated performance to grant objectives.
However, we did not test the reliability of the financial management system
as a whole and reliance on computer-based data was not significant to our
objective.




                                      33
                                                              APPENDIX II



          SCHEDULE OF DOLLAR-RELATED FINDINGS

QUESTIONED COSTS:                                      AMOUNT        PAGE


Unallowable Health Wellness Incentive                  $     1,546    11


Unsupported Subrecipient Costs                              36,323    13


                TOTAL QUESTIONED COSTS                     $37,869



Enhanced Revenue from Program Income                   3,482,466      9



       TOTAL DOLLAR-RELATED FINDINGS                $3,520,335




___________________

Questioned Costs are expenditures that do not comply with legal,
regulatory, or contractual requirements, or are not supported by adequate
documentation at the time of the audit, or are unnecessary or unreasonable.
Questioned costs may be remedied by offset, waiver, recovery of funds, or the
provision of supporting documentation.

Enhanced Revenues are additional future annual monies (usually
recurring) that can be obtained from management action on audit
recommendations.




                                    34
                                                                                                                    APPENDIX III


                          GRANT 2008-DJ-BX-0018: SUBGRANT PROJECTS
                                                                                    JAG
                                                                                  Purpose                               Award
Number        Subrecipient Name                  County        Project Title       Area        Award Period           Amount ($)
          Washington County Prosecutor's
  01                                           Washington     Drug Prosecutor       B       1/1/2009 - 12/31/2009      15,062.00
                      Office
  02     Harrison County Prosecutor's Office    Harrison      Drug Prosecutor       B       1/1/2009 -12/31/2009       12,000.00

  03      Scott County Prosecutor's Office        Scott       Drug Prosecutor       B       4/1/2009 - 12/31/2009      10,816.00

  04     Vanderburgh County Superior Court     Vanderburgh      Drug Court           E      1/1/2009 - 12/31/2009      33,338.43

  05       Marion County Superior Court          Marion      Community Court        B       1/1/2009 - 12/31/2009      57,175.79

  06       Madison County Unified Courts         Madison        Drug Court           E      1/1/2009 - 12/31/2009      36,323.00

  07          Parke County Drug Court             Parke         Drug Court           E      1/1/2009 - 12/31/2009      19,319.51
            Hancock County Community
  08                                            Hancock         Drug Court           E      1/1/2009 - 12/31/2009      31,480.77
                   Corrections
  09      Lawrence County Commissioners         Lawrence        Drug Court           E      1/1/2009 - 12/31/2009      69,847.00

  10       Clark County Superior Court II         Clark         Drug Court           E      1/1/2009 - 12/31/2009      36,323.00

  11        Monroe County Government             Monroe         Drug Court           E      1/1/2009 - 12/31/2009      65,369.00

  12       Warrick County Superior Court         Warrick        Drug Court           E      1/1/2009 - 12/31/2009      65,783.52

  13       Indiana State Police Laboratory       Marion*     Mass Spectrometer       F      1/1/2009 - 12/31/2009      63,498.33
           Marion County Public Defender                       Juvenile & Adult
  14                                             Marion                             B       1/1/2009 - 12/31/2009      70,691.00
                     Agency                                  Placement Program
  15      Jeffersonville Police Department        Clark      Community Policing     A       1/1/2009 - 12/31/2009      32,215.00

  16      Tippecanoe County Government         Tippecanoe     Reentry Project       D       1/1/2009 - 12/31/2009      34,250.00
          Vanderburgh County Prosecutor's
  17                                           Vanderburgh    Drug Task Force       A       1/1/2009 - 12/31/2009      45,565.00
                      Office
  18     Henry County Sheriff's Department       Henry        Drug Task Force       A       1/1/2009 - 12/31/2009      32,421.00

  19         Auburn Police Department            DeKalb       Drug Task Force       A       1/1/2009 - 12/31/2009      17,263.00

  20            City of Connersville            Fayette       Drug Task Force       A       1/1/2009 - 12/31/2009      14,000.00




                                                                    35
                                                                                     JAG
                                                                                   Purpose                             Award
Number          Subrecipient Name               County         Project Title        Area         Award Period        Amount ($)

  21        Marion County Superior Court        Marion*        Reentry Court         B       1/1/2009 - 12/31/2009    81,397.00

                                                                 Defender
  22       Indiana Public Defender Council      Marion*         Performance           F      1/1/2009 - 12/31/2009    33,454.99
                                                               Improvement
  23      Allen County Sheriff's Department       Allen       Drug Task Force        A       1/1/2009 - 12/31/2009    32,000.00
             Randolph County Sheriff's
  24                                            Randolph      Drug Task Force        A       1/1/2009 - 12/31/2009    25,949.60
                    Department
             St. Joseph County Police                       Drug Task Force but
  25                                           St. Joseph                            A       1/1/2009 - 12/31/2009      0.00
                    Department                              did not accept award
  26     Grant County Sheriff's Department       Grant        Drug Task Force        A       1/1/2009 - 12/31/2009    40,977.00

  27       Vigo County Prosecutor's Office        Vigo        Drug Task Force        A       1/1/2009 - 12/31/2009    42,677.01

  28         Kokomo Police Department            Howard       Drug Task Force        A       1/1/2009 - 12/31/2009    51,789.00
           Hendricks County Prosecutor's
  29                                            Hendricks     Drug Task Force        A       1/1/2009 - 12/31/2009    36,829.00
                      Office
  30        Marion County Superior Court         Marion       Drug Task Force        A       2/7/2009 - 12/31/2009    65,250.00

  31          Linton Police Department           Greene      Equipment Grant         A       1/1/2010 - 7/31/2010     10,000.00
           Montgomery County Probation
  32                                           Montgomery    Equipment Grant         A       1/1/2010 - 7/31/2010     8,060.00
                  Department
  33     Wayne County Sheriff's Department       Wayne       Equipment Grant         A       1/1/2010 - 7/31/2010     10,000.00

  34        Batesville Police Department         Ripley      Equipment Grant         A       1/1/2010 - 7/31/2010     9,026.00

  35         Tell City Police Department          Perry      Equipment Grant         A       1/1/2010 - 7/31/2010     9,909.00

  36     Benton County Sheriff's Department      Benton      Equipment Grant         A       1/1/2010 - 7/31/2010     7,837.00

  37      North Vernon Police Department        Jennings     Equipment Grant         A       1/1/2010 - 7/31/2010     9,171.00

  38     Carroll County Sheriff's Department     Carroll     Equipment Grant         A       1/1/2010 - 7/31/2010     7,758.00

  39        Pierceton Police Department         Kosciusko    Equipment Grant         A       1/1/2010 - 7/31/2010     8,919.00

  40        Seymour Police Department           Jackson      Equipment Grant         A       1/1/2010 - 7/31/2010     9,273.00




                                                                    36
                                                                                  JAG
                                                                                Purpose                             Award
Number         Subrecipient Name              County         Project Title       Area         Award Period        Amount ($)
  41     Perry County Sheriff's Department     Perry       Equipment Grant        A       1/1/2010 - 7/31/2010     9,909.00

  42     Henry County Sheriff's Department     Henry       Equipment Grant        A       1/1/2010 - 7/31/2010     7,300.00

  43     Noble County Sheriff's Department     Noble       Equipment Grant        A       1/1/2010 - 7/31/2010     9,180.00

  44       Grant County Commissioners          Grant       Equipment Grant        A       1/1/2010 - 7/31/2010     10,000.00

  45         Salem Police Department         Washington    Equipment Grant        A       1/1/2010 - 7/31/2010     8,500.00

  46     Clark County Sheriff's Department     Clark       Equipment Grant        A       1/1/2010 - 7/31/2010     9,450.00

  47         Elkhart Police Department         Elkhart     Equipment Grant        A       1/1/2010 - 7/31/2010     8,271.00
             Jennings County Sheriff's
  48                                          Jennings     Equipment Grant        A       1/1/2010 - 7/31/2010     10,000.00
                   Department
  49       Cannelton Police Department         Perry       Equipment Grant        A       1/1/2010 - 7/31/2010     9,378.00

  50      North Liberty Police Department    St. Joseph    Equipment Grant        A       1/1/2010 - 7/31/2010     6,939.00
              Putnam County Sheriff's
  51                                          Putnam       Equipment Grant        A       1/1/2010 - 7/31/2010     10,000.00
                   Department
  52        Pittsboro Police Department      Hendricks     Equipment Grant        A       1/1/2010 - 7/31/2010     9,332.00

  53            Town of Thorntown              Boone       Equipment Grant        A       1/1/2010 - 7/31/2010     8,100.00
          Washington County Prosecutor's                   Prosecuting Drug
  54                                         Washington                           B       1/1/2010 - 12/31/2010    20,000.00
                      Office                                    Crimes
  55      Clark County Prosecutor's Office     Clark        Drug Prosecutor       B       1/1/2010 - 12/31/2010    46,516.00
                                                           Putting the Brakes
  56      Scott County Prosecutor's Office     Scott                              B       1/1/2010 - 12/31/2010    34,500.00
                                                                on Drugs
  57      Lawrence County Commissioners      Lawrence      OVWI Drug Court        E       1/1/2010 - 12/31/2010    69,847.00
                                                          Livescan Compliance
  58     Indiana Department of Correction     Marion*                             F       1/1/2010 - 12/31/2010    73,909.00
                                                                 Project
                                                            Law Enforcement
                                                               Committee
  59        City of Indianapolis - IMPD        Marion                             A       4/1/2010- 12/31/2010     40,000.00
                                                              Conference--
                                                            Southern District
                                                            Mental Health of
  60       Fort Wayne Police Department         Allen        America Client       A       7/1/2010 - 6/30/2011     40,000.00
                                                           Advocacy Services




                                                                  37
                                                                                JAG
                                                                              Purpose                                 Award
Number           Subrecipient Name             County      Project Title       Area          Award Period           Amount ($)
                                                         Law Enforcement
                                                           Coordinating
  61      Town of Highland Police Department    Lake        Committee           A         4/1/2010- 12/31/2010       5,800.00
                                                        Conference-Northern
                                                              District
                                                                                        Total subrecipient awards   1,709,948.95
                                                                                 ICJI 10% Administrative Expense
                                                                                                                       190,775.70
                                                                                                            Fund
                                                                                        Unobligated Award Funds          7,032.35
* = Agency provides statewide benefit                                                        Total Federal Award    1,907,757.00



JAG Purpose Areas defined as follows:
     • A - LAW ENFORCEMENT PROGRAMS
     • B - PROSECUTION AND COURT PROGRAMS
     • C - PREVENTION AND EDUCATION PROGRAMS
     • D - CORRECTIONS AND COMMUNITY CORRECTIONS PROGRAMS
     • E - DRUG TREATMENT AND ENFORCEMENT PROGRAMS
     • F - PLANNING, EVALUATION, AND TECHNOLOGY IMPROVEMENT PROGRAMS
     • G - CRIME VICTIM AND WITNESS PROGRAMS
Source: ICJI




                                                                38
                                                                                                                                APPENDIX IV



                                GRANT 2009-SU-B9-0047: SUBGRANT PROJECTS
                                                                                                 JAG
                                                                                               Purpose                               Award
Number          Subrecipient Name                 County               Project Title            Area        Award Period           Amount ($)


  01     Integrated Public Safety Commission      Marion*          Statewide CAD/RMS              F      8/1/2009 - 9/30/2011      4,005,476.00
  02             Indiana State Police             Marion*             Fleet Upgrade              A       8/1/2009 - 9/30/2011      3,440,860.00
  03        Indiana Supreme Court - JTAC          Marion*         Odyssey/eCWS Rollout            F      8/1/2009 - 9/30/2011      494,523.00
  04        Indiana State Police - Livescan      Marion*             Livescan Project             F      10/1/2009 - 9/30/2011     3,882,744.00
                                                Dearborn &
  05        Dearborn/Ohio Co. Prosecutor                      Dearborn/Ohio Drug Task Force      A       10/1/2009 - 9/30/2011     174,673.00
                                                   Ohio
  06        Grant County Commissioners            Grant          JEAN Team/Wabash DTF            A       10/1/2009 - 9/30/2011       5,412.00
                                                               Vanderburgh/Evansville Drug
  07       Vanderburgh County Prosecutor        Vanderburgh                                      A,B     10/1/2009 - 9/30/2011     230,798.00
                                                                        Task Force
  08          Carmel Police Department           Hamilton     Hamilton/Boone Drug Task Force     A       10/1/2009 - 9/30/2011      50,820.00
  09         City of Indianapolis (Metro)         Marion       Metropolitan Drug Task Force      A       10/1/2009 - 9/30/2011      50,000.00
                                                               Muncie/Anderson Drug Task
  10         Anderson Police Department           Madison                                        A       10/1/2009 - 9/30/2011      61,920.00
                                                                           Force
  11         Monroe County Government             Monroe        Monroe County Drug Court          E      10/1/2009 - 9/30/2011     124,634.00
                                                               Offender ReEntry Treatment
  12     Lake County Community Corrections         Lake                                           E      10/1/2009 - 9/30/2011     473,720.00
                                                                         Program
          Indianapolis Dept. Of Public Safety                  Marion County Leadership in
  13                                              Marion                                         D       10/1/2009 - 9/30/2011     196,276.00
                        (LAP)                                        Action Program
  14     Miami County Sheriff's Department        Miami           IDEA Training Academy          A       10/1/2009 - 9/30/2011     289,972.00
  15      City of Indianapolis (Touch DNA)        Marion       Forensic ID Touch DNA Project      F      10/1/2009 - 9/30/2011     1,215,954.00
  16              Town of Dillsboro              Dearborn         CAC Region 15 Start-Up         G       10/1/2009 - 9/30/2011     247,340.00
          Indianapolis Dept. of Public Safety
  17                                              Marion            Forensic Diversion           B       10/1/2009 - 9/30/2011     452,500.00
                       (F. Div)
                                                                   Crawford County Drug
  18     Crawford County Prosecutor's Office     Crawford                                        B       10/1/2009 - 9/30/2011     107,650.00
                                                                        Prosecutor
                                                               Hamilton County Community
  19     Hamilton County Prosecutor's Office     Hamilton                                        G       10/1/2009 - 9/30/2011     217,617.00
                                                                      Justice Center
                                                                Delinquency and Substance
  20     Vanderburgh County Superior Court      Vanderburgh                                      C       10/1/2009 - 9/30/2011     470,348.00
                                                                 Abuse Prevention Program
                                                              Mental Health and Modified T/C
  21     Allen County Community Corrections        Allen                                         D       10/1/2009 - 9/30/2011     640,518.00
                                                                          Project
  22     City of Indianapolis (Gang database)     Marion       Indy-IN State Gang Database        F      10/1/2009 - 9/30/2011     260,790.00
                                                               Lake County Drug and Crime
  23      Lake County Sheriff's Department         Lake                                           F      10/1/2009 - 9/30/2011     417,711.00
                                                                Information Sharing Project




                                                                          39
                                                                                                 JAG                                Award
                                                                                               Purpose                              Amount
Number            Subrecipient Name                County               Project Title           Area         Award Period            ($)
  24               LaPorte County                 LaPorte     LaPorte County CAD/RMS Project     F       10/1/2009 - 9/30/2011    1,208,715.00
              Marion County Community
  25                                               Marion         Technical Rule Violation       D       10/1/2009 - 9/30/2011     265,546.00
                     Corrections
  26        Rocky Ripple Police Department         Marion            Vehicle Purchase            A       10/1/2009 - 9/30/2011      26,222.00
  27               Town of Camden                  Carroll           Vehicle Purchase            A       10/1/2009 - 9/30/2011      24,943.00
  28        Charlestown Police Department          Clark             Vehicle Purchase            A       10/1/2009 - 9/30/2011      29,726.00
  29          Rushville Police Department           Rush             Vehicle Purchase            A       10/1/2009 - 9/30/2011      47,000.00
  30         Cannelton Police Department           Perry             Vehicle Purchase            A       10/1/2009 - 9/30/2011      29,060.00
  31              Town of Chalmers                 White             Vehicle Purchase            A       10/1/2009 - 9/30/2011      20,792.00
  32               Town of Ladoga                Montgomery          Vehicle Purchase            A       10/1/2009 - 9/30/2011      37,529.00
  33          Tell City Police Department          Perry             Vehicle Purchase            A       10/1/2009 - 9/30/2011      30,568.00
  34        Indiana Supreme Court - JTAC          Marion*         Odyssey/DOC Interface          F       10/1/2009 - 9/30/2011     273,561.00
                                                                                                      Total subrecipient awards   19,505,918.00
                                                                                               ICJI 10% Administrative Expense
                                                                                                                                    2,167,324.00
         * = Agency provides statewide benefit                                                                             Fund
                                                                                                      Unobligated Award Funds               2.00
                                                                                                           Total Federal Award     21,673,244.00




JAG Purpose Areas defined as follows:
     • A - LAW ENFORCEMENT PROGRAMS
     • B - PROSECUTION AND COURT PROGRAMS
     • C - PREVENTION AND EDUCATION PROGRAMS
     • D - CORRECTIONS AND COMMUNITY CORRECTIONS PROGRAMS
     • E - DRUG TREATMENT AND ENFORCEMENT PROGRAMS
     • F - PLANNING, EVALUATION, AND TECHNOLOGY IMPROVEMENT PROGRAMS
     • G - CRIME VICTIM AND WITNESS PROGRAMS
   Source: ICJI




                                                                           40
                                                                         APPENDIX V


                             AUDITEE RESPONSE




        STATE OF INDIANA
                                                      Dr. T. Neil Moore, Executive Director
  Mitch Daniels, Governor                             INDIANA CRIMINAL JUSTICE INSTITUTE
                                                         101 W. Washington St., Suite 1170
                                                          Indianapolis, Indiana 46204-2038
                                                             Telephone: (317) 232-1233
                                                                   Fax: (317) 232-4979
August 9, 2010


Ms. Carol Taraszka
Regional Audit Manager
Chicago Regional Audit Office
Office of the Inspector General
U.S. Department of Justice
500 West Madison Street, Suite 1121
Chicago, Illinois 60661-2590

Dear Ms. Taraszka:

Please find attached the responses to the draft report on the recent audit of the
Office of Justice Programs (OJP), Bureau of Justice Assistance, Edward Byrne
Memorial Grants administered by the Indiana Criminal Justice Institute. Grant
numbers listed below as follows:

2007-DJ-BX-00Bl             2009-DJ-BX-0049
200B-DJ-BX-00IB             200B-DJ-BX-0752
                            2009-SU-B9-0047

Respectfully,




T. Neil Moore, Ed.D.
Executive Director



                                         41
                  DRAFT AUDIT REPORT – LIMITED OFFICIAL USE


TNM/sv

Attachments (2)

cc:   Susan K Sorensen, USDOJ
      Cheryl J. Holland, USDOJ
      Todd A. Anderson, USDOJ




                          An Equal Opportunity Employer - www.in.gov/cji
                                      42
1. Work with the ICJI to determine how the ICJI should account for program
   income, including a consideration of the potential inconsistency between
   Indiana state law and OJP guidelines.

   The ICJI is working with the Governor’s Office to draft legislation that
   clearly outlines the use of grant funded program income. Currently the
   portion of program income that is tied to federal funding goes back into
   the grant program, the non-federal portion of program income is
   currently deposited into the state school fund.

2. Ensure the ICJI reports program income to OJP, including any unreported
   program income previously earned by subrecipients. This should include
   ensuring that the ICJI’s subrecipients are reporting program income to
   the ICJI and that program income earned by the subrecipients is being
   used in the furtherance of the grant programs, including the $3,482,466
   reported as earned by subrecipients under the 2007 and 2008 JAG
   awards between January 2008 and December 2009.

   The ICJI subrecipients have been trained on how to report program
   income as well as the use of program income. The reporting and
   compliance with use of program income is a requirement in order to be
   eligible for future funding. The ICJI staff is holding subrecipients
   accountable by conducting regular desk reviews and site visits.

   The ICJI fiscal division, now under the Office of Management and Budget,
   has been trained to accurately submit program income to OJP.

   The ICJI has asked the State Board of Accounts to do a complete audit of
   all federally funded MJTFs and Problem Solving Courts to ensure
   compliance with use of program income.

3. Direct the ICJI to remedy the $1,546 in health care incentives allocated to
   its JAG awards and reimbursed by OJP.

   The ICJI has resolved this by working with the State Auditor’s Office to
   appropriately charge health care incentives to the state match account.

4. Direct the ICJI to remedy the $36,323 in unsupported subrecipient
   expenditures that were reimbursed by OJP.

   The ICJI has requested additional documentation to verify these expenses
   were in fact grant related, if proof of expenses cannot be provided the
   ICJI will require the subrecipient to return the funds to the ICJI.




                                    43
5. Require the ICJI to establish and implement procedures that ensure
   subrecipients’ reimbursement requests are adequately supported, timely
   reviewed, and paid promptly, and that reimbursement requests from
   state-level subrecipients are reviewed and approved prior to payment.

   The ICJI has the fiscal policy and procedure manual to show
   subrecipients’ reimbursement requests are timely reviewed and processed
   promptly.

   The ICJI will draw funds from the federal award quarterly with the
   submission of Federal Form 269 as required by federal regulations. At
   that time, if the State sub-recipients have not submitted their program
   reports, or if the ICJI Program Manager determines that the Sub-recipient
   expenses are not in compliance with their approved budget ICJI will not
   transfer the associated revenue to the state sub-recipient until they are in
   compliance.

6. Ensure the ICJI assigns and trains adequate staff to monitor and oversee
   JAG and Recovery Act JAG awards

   The ICJI has reassigned responsibilities so that there is ample staff to
   monitor JAG and Recovery Act JAG awards. In addition, the ICJI field
   staff will be assisting with compliance monitoring.

7. Ensure the ICJI develops a procedures handbook for ICJI grant program
   management that articulates responsibilities for administering the JAG
   and Recovery Act JAG awards. The manual should specifically address the
   monitoring and oversight of subrecipients, including the review of
   subrecipient supporting documentation, conducting subrecipient site
   visits, providing training and technical assistance, and obtaining and
   analyzing external audits and reviews of subrecipients to identify
   problems and issues that may affect JAG-funded awards.

   The ICJI is developing a procedures handbook for ICJI program
   managers. The Handbook addresses monitoring and oversight of
   subrecipients, review of claims and supporting documentation, desk
   reviews and site visits, training and technical assistance. ICJI is now
   requiring all subrecipients to submit a full copy of their A-133.

8. Ensure the ICJI has developed a grant procedure manual for subrecipients
   that provides guidance on all aspects of accounting for, managing, and
   reporting on JAG and Recovery Act JAG awards, and ensure that this
   manual is disseminated to all subrecipients.

   ICJI has a developed a grant procedures manual for subrecipients. The
   manual is still in draft form, to be finalized by October 1, 2010. The


                                    44
   subrecipient manual will be posted to the ICJI website, emailed to all
   current subrecipients and distributed at the annual training.

9. Direct the ICJI to ensure that subrecipient applications (and any
   subsequent budget revisions) contain sufficient details to identify program
   activities and the reasonableness of associated costs.

   The subrecipient applications have been revised and require the grantee
   to report sufficient details including a strong budget narrative, outlining
   and detailing all associated costs.

10. Request the ICJI to submit a revised annual progress report to accurately
    reflect program activities and metrics.

   The ICJI is working on a revised annual progress report.

11. Direct the ICJI to verify the accuracy of subrecipient data reported to the
    Indiana Office of Management and Budget prior to the Indiana Office of
    Management and Budget submitting the required Recovery Act Reports to
    FederalRecovery.gov.

   The ICJI now reviews all subrecipient data reported to the Indiana Office
   of Management and Budget prior to submission to FederalRecovery.gov.

12. Ensure the ICJI submits a revised fourth quarter 2009 report to
    FederalRecovery.gov that corrects its initial overstatement of certain
    information.

   The ICJI is working with the Office of Management and Budget on
   a revised and corrected fourth quarter 2009 report to submit to
   FederalRecovery.gov




                                     45
                                                                                APPENDIX VI


                                   OJP RESPONSE

                                                   U.S. Department of Justice

                                                   Office of Justice Programs

                                                 Office of Audit, Assessment, and Management



                                                Washington, D.C. 20531




August 6, 2010


MEMORANDUM TO:               Carol S. Taraszka
                             Regional Audit Manager
                             Office of the Inspector General
                             Chicago Regional Audit Office

                               /s/
FROM:                        Maureen A. Henneberg
                             Director

SUBJECT:                     Response to the Draft Audit Report, Office of Justice Programs,
                             Bureau of Justice Assistance, Edward Byrne Memorial Justice
                             Assistance Grants Awarded to the Indiana Criminal Justice Institute,
                             Indianapolis, Indiana

This memorandum is in response to your correspondence, dated July 26, 2010, transmitting the
subject draft audit report for the Indiana Criminal Justice Institute (ICJI). We consider the
subject report resolved and request written acceptance of this action from your office.

The report contains 12 recommendations, $37,869 in questioned costs, and $3,482,466 in
enhanced revenue from program income. The following is the Office of Justice Programs’ (OJP)
analysis of the draft audit report recommendations. For ease of review, the recommendations are
restated in bold and are followed by our response.

1.     We recommend that OJP work with the ICJI to determine how the ICJI should
       account for program income, including a consideration of the potential
       inconsistency between Indiana state law and OJP guidelines.

       We agree with the recommendation. We will coordinate with the ICJI to determine how
       the ICJI should account for program income earned as a result of a direct Federal award,



                                              46
     including a consideration of the potential inconsistency between Indiana state law and the
     OJP Federal Guide.

2.   We recommend that OJP ensure the ICJI reports program income to OJP,
     including any unreported program income previously earned by subrecipients. This
     should include ensuring that the ICJI’s subrecipients are reporting program income
     to the ICJI and that program income earned by the subrecipients is being used in
     the furtherance of the grant programs, including the $3,482,466 reported as earned
     by subrecipients under the 2007 and 2008 JAG awards between January 2008 and
     December 2009.

     We agree with the recommendation. We will coordinate with the ICJI to obtain a copy of
     implemented procedures to ensure that the ICJI’s subrecipients are reporting program
     income to the ICJI, and that program income earned by the subrecipients is being used in
     the furtherance of the grant programs. As stated in our response to Recommendation
     Number 1, we will coordinate with the ICJI to determine how the ICJI should account for
     program income earned as a result of a direct Federal award, including the $3,482,466 in
     program income, earned by subrecipients between January 2008 and December 2009,
     under grant numbers 2007-DJ-BX-0081 and 2008-DJ-BX-0018.

3.   We recommend that OJP direct the ICJI to remedy the $1,546 in health care
     incentives allocated to its JAG awards and reimbursed by OJP.

     We agree with the recommendation. We will coordinate with the ICJI to remedy the
     $1,546 in questioned costs related to health care incentives that were allocated to grant
     numbers 2007-DJ-BX-0081 and 2008-DJ-BX-0018.

4.   We recommend that OJP direct the ICJI to remedy the $36,323 in unsupported
     subrecipient expenditures that were reimbursed by OJP.

     We agree with the recommendation. We will coordinate with the ICJI to remedy the
     $36,323 in unsupported questioned costs related to subrecipient expenditures that were
     charged to grant number 2008-DJ-BX-0018.

5.   We recommend that OJP require the ICJI to establish and implement procedures
     that ensure subrecipients’ reimbursement requests are adequately supported, timely
     reviewed, and paid promptly, and that reimbursement requests from state-level
     subrecipients are reviewed and approved prior to payment.

     We agree with the recommendation. We will coordinate with the ICJI to obtain copy of
     procedures developed and implemented to ensure that subrecipients’ reimbursement
     requests are adequately supported, timely reviewed, and promptly paid. We will also
     coordinate with the ICJI to obtain a copy of procedures implemented to ensure that
     reimbursement requests from state-level subrecipients are reviewed and approved prior to
     payment.




                                             47
6.    We recommend that OJP ensure the ICJI assigns and trains adequate staff to
      monitor and oversee JAG and Recovery Act JAG awards.

      We agree with the recommendation. We will coordinate with the ICJI to obtain a copy of
      procedures developed and implemented to ensure that the ICJI assigns and trains
      adequate staff to monitor and oversee its DOJ grants.

7.    We recommend that OJP ensure the ICJI develops a procedures handbook for ICJI
      grant program management that articulates responsibilities for administering the
      JAG and Recovery Act JAG awards. The manual should specifically address the
      monitoring and oversight of subrecipients, including the review of subrecipient
      supporting documentation, conducting subrecipient site visits, providing training
      and technical assistance, and obtaining and analyzing external audits and reviews of
      subrecipients to identify problems and issues that may affect JAG-funded awards.

      We agree with the recommendation. We will coordinate with the ICJI to obtain a copy of
      procedures implemented to ensure that ICJI develops a procedures handbook for grant
      program management that articulates responsibilities for administering Federal grant
      funds.

8.    We recommend that OJP ensure the ICJI has developed a grant procedures manual
      for subrecipients that provides guidance on all aspects of accounting for, managing,
      and reporting on JAG and Recovery Act JAG awards, and ensure that this manual
      is disseminated to all subrecipients.

      We agree with the recommendation. We will coordinate with the ICJI to obtain a copy of
      procedures developed and implemented for subrecipients that provides guidance on all
      aspects of accounting for, managing, and reporting on Federal grant funds. We will also
      obtain documentation from the ICJI to ensure that the implemented procedures are
      disseminated to all subrecipients.

9.    We recommend that OJP direct the ICJI to ensure that subrecipient applications
      (and any subsequent budget revisions) contain sufficient details to identify program
      activities and the reasonableness of associated costs.

      We agree with the recommendation. We will coordinate with the ICJI to obtain a copy
      of procedures developed and implemented to ensure that subrecipient applications,
      including any subsequent budget revisions, contain sufficient details to identify program
      activities and the reasonableness of associated costs.

10.   We recommend that OJP request the ICJI to submit a revised annual progress
      report to accurately reflect program activities and metrics.

      We agree with the recommendation. We will coordinate with the ICJI to obtain a copy of
      the revised annual progress report to accurately reflect program activities and metrics for



                                              48
       grant number 2007-DJ-BX-0081.
11.    We recommend that OJP direct the ICJI to verify the accuracy of subrecipient data
       reported to the Indiana Office of Management and Budget prior to the Indiana
       Office of Management and Budget submitting the required Recovery Act Reports to
       FederalRecovery.gov.

       We agree with the recommendation. We will coordinate with the ICJI to obtain a copy of
       procedures implemented to ensure that the accuracy of subrecipient data reported to the
       Indiana Office of Management and Budget, prior to the data’s inclusion in the required
       reports submitted to FederalRecovery.gov.

12.    We recommend that OJP ensure the ICJI submits a revised fourth quarter 2009
       report to FederalRecovery.gov that corrects its initial overstatement of certain
       information.

       We agree with the recommendation. We will coordinate with the ICJI to obtain a copy of
       the revised fourth quarter 2009 report to FederalRecovery.gov, which corrects its initial
       overstatement of certain information.

We appreciate the opportunity to review and comment on the draft audit report. If you have any
questions or require additional information, please contact Jeffery A. Haley, Deputy Director,
Audit and Review Division, on (202) 616-2936.

cc:    Jeffery A. Haley
       Deputy Director, Audit and Review Division
       Office of Audit, Assessment, and Management

       Amanda LoCicero
       Budget Analyst
       Bureau of Justice Assistance

       Carrie Booth
       Program Manager
       Bureau of Justice Assistance

       Richard P. Theis
       Assistant Director
       Audit Liaison Group
       Justice Management Division

       OJP Executive Secretariat
       Control Number 20101585




                                              49
                                                                        APPENDIX VII


            OFFICE OF THE INSPECTOR GENERAL
     ANALYSIS AND SUMMARY OF ACTIONS NECESSARY TO
                    CLOSE THE REPORT

      We provided the Indiana Criminal Justice Institute (ICJI) and the Office
of Justice Programs (OJP) our draft audit report for review and comment.
The response that we received from the ICJI has been incorporated into our
report as Appendix V, and the response that we received from OJP has been
incorporated into our report as Appendix VI. 18 In our analysis below, we
respond to any relevant comments and detail the actions necessary to close
each of the recommendations.

Recommendation Number

1.     Resolved. In response to our draft report, the grantee stated that it
       is working with the Governor’s Office to draft legislation that clearly
       outlines the use of grant-funded program income. The ICJI stated that
       currently, the portion of program income tied to federal funding goes
       back into the grant program, while the non-federal portion of program
       income is deposited into the state school fund. OJP stated that it will
       coordinate with the ICJI to determine how to account for program
       income earned as a result of a direct federal award, including a
       consideration of the potential inconsistency between Indiana state law
       and the OJP Federal Guide.

       To close this recommendation, please provide, once enacted, a copy of
       the revised legislation that outlines the use of grant-funded program
       income. Additionally, please provide evidence that the ICJI is properly
       accounting for the federal program income earned by its subrecipients.

2.     Resolved. In response to our draft report, the ICJI stated that
       subrecipients have been trained on the reporting and use of program
       income. Moreover, the ICJI stated that to be eligible for future
       funding, subrecipients must report and comply with the use of
       program income, and that the ICJI will conduct regular desk reviews
       and site visits to ensure subrecipients are properly reporting and using
       program income.

       Additionally, the ICJI stated that its fiscal division has been trained to
       accurately report program income to OJP. The ICJI also stated that it

       18
         The response from the ICJI included an attachment containing its draft of the
Subgrantee Policy and Procedure Manual. We did not include that attachment in our final
report.


                                            50
     asked the State Board of Accounts to perform a complete audit of all
     federally funded multi-jurisdictional task forces and Problem Solving
     Courts to ensure compliance with the use of program income. OJP
     stated that it will coordinate with the ICJI to obtain a copy of its
     implemented procedures for ensuring subrecipients report program
     income and that it is being used in the furtherance of grant programs.

     To close this recommendation, please provide a copy of appropriate,
     implemented procedures, once approved by OJP. In addition, please
     provide the results of the audit performed by the State Board of
     Accounts, as well as evidence that subrecipients properly used
     program income, including the $3,482,466 reported as earned by
     subrecipients under the 2007 and 2008 JAG awards between
     January 2008 and December 2009, in the furtherance of grant
     programs when applicable.

3.   Resolved. In response to our draft report, the grantee stated that it
     worked with the State Auditor’s Office to appropriately charge health
     care incentives to the state match account. OJP stated that it will
     coordinate with the ICJI to remedy the $1,546 in unallowable costs
     related to health care incentives.

     To close this recommendation, please provide us with evidence that
     the $1,546 in questioned costs have been appropriately remedied.

4.   Resolved. In response to our draft report, the grantee stated that it
     requested the subrecipient to provide additional documentation in
     support of the questioned costs. The ICJI stated that it will require the
     subrecipient to return the funds to the ICJI if supporting
     documentation cannot be provided. OJP stated that it will coordinate
     with the ICJI to remedy the $36,323 in unsupported costs.

     To close this recommendation, please provide us with evidence that
     the $36,323 in questioned costs have been appropriately remedied.

5.   Resolved. In response to our draft report, the grantee stated that its
     fiscal policy and procedure manual provides evidence that subrecipient
     reimbursement requests are timely reviewed and promptly processed.
     However, a manual only provides evidence that procedures are in
     place to ensure subrecipient reimbursement requests are timely
     reviewed and promptly processed; it does not ensure that the
     procedures are actually being followed.
     In addition, the ICJI stated that at the time of drawing funds, it will
     determine if state-level subrecipients have submitted their program


                                     51
     reports and if the claimed expenses are in compliance with their
     approved budget. If not, the ICJI stated that it will not transfer the
     associated revenue to the state-level subrecipients until the
     subrecipients are in compliance.

     OJP stated that it will coordinate with the ICJI to obtain a copy of
     procedures implemented to ensure that subrecipients’ reimbursement
     requests are adequately supported, timely reviewed, and promptly
     paid. OJP further stated that it will coordinate with the ICJI to obtain a
     copy of the procedures to ensure that state-level subrecipient
     reimbursement requests are reviewed and approved prior to payment.

     To close this recommendation, please provide a copy of appropriate,
     implemented procedures, once approved by OJP, and evidence of the
     ICJI’s adherence to these implemented procedures.

6.   Resolved. In response to our draft report, the ICJI stated that it
     reassigned responsibilities to ensure there is ample staff to monitor
     JAG and Recovery Act JAG awards. In addition, the ICJI stated that its
     field staff will assist with compliance monitoring. OJP stated that it will
     coordinate with the ICJI to obtain a copy of the procedures
     implemented to ensure that the ICJI assigns and trains adequate staff
     to monitor and oversee its DOJ grants.

     To close this recommendation, please provide, once approved by OJP,
     a copy of appropriate, implemented procedures to ensure that the ICJI
     assigns and trains adequate staff, as well as a list of the names of staff
     currently overseeing the Byrne JAG awards and the training provided
     to those individuals.

7.   Resolved. In response to our draft report, the ICJI stated that it is
     developing a procedures handbook for its program managers. The
     ICJI stated that this handbook will include procedures for monitoring
     and overseeing subrecipients, reviewing claims and supporting
     documentation, conducting desk reviews and site visits, and providing
     training and technical assistance. Additionally, the ICJI stated that it
     is now requiring all subrecipients to submit their single audit reports.
     OJP stated that it will coordinate with the ICJI to ensure that it
     develops a grant program management handbook that articulates
     responsibilities for administering federal grant funds.

     To close this recommendation, please provide evidence that an
     appropriate procedures handbook for grant program management has
     been implemented and approved by OJP.


                                      52
8.    Resolved. In response to our draft report, the grantee stated that it
      drafted a grant procedures manual for subrecipients and expects to
      finalize the manual by October 1, 2010. The ICJI stated that once
      finalized, the manual will be posted to its website, e-mailed to all
      current subrecipients, and distributed at the annual training seminar.
      OJP stated that it will coordinate with the ICJI to obtain a copy of the
      procedures developed and implemented for subrecipients, which will
      provide guidance on all aspects of accounting for, managing, and
      reporting on federal grant funds. OJP stated that it will also obtain
      documentation from the ICJI to confirm that the implemented
      procedures have been disseminated to all subrecipents.

      To close this recommendation, please provide evidence that an
      appropriate subrecipient grant procedures manual, approved by OJP,
      has been disseminated to all subrecipients.

9.    Resolved. In response to our draft report, the ICJI stated that it
      revised the subrecipient grant applications, which require subrecipients
      to outline and detail all associated costs, including a strong budget
      narrative. OJP stated that it will coordinate with the ICJI to obtain a
      copy of the procedures developed and implemented to ensure that
      subrecipient applications, including any subsequent budget revisions,
      contain sufficient details to identify program activities and the
      reasonableness of associated costs.

      To close this recommendation, please provide a copy of appropriate,
      implemented procedures and revised subrecipient grant application,
      once approved by OJP.

10.   Resolved. In response to our draft report, the grantee stated that it
      is revising its annual progress report. OJP stated that it will coordinate
      with the ICJI to obtain a revised annual progress report that accurately
      reflects program activities and metrics for grant number
      2007-DJ-BX-0081.

      To close this recommendation, please provide a copy of the revised,
      accurate annual progress report.

11.   Resolved. In response to our draft report, the ICJI stated that it
      currently reviews all subrecipient data reported to the Indiana Office of
      Management and Budget prior to the Indiana Office of Management
      and Budget submitting it to FederalRecovery.gov. OJP stated that it
      will coordinate with the ICJI to obtain a copy of procedures


                                      53
      implemented to ensure the accuracy of subrecipient data reported to
      the Indiana Office of Management and Budget, prior to the data’s
      inclusion in the required reports submitted to FederalRecovery.gov.

      To close this recommendation, please provide evidence that the ICJI
      reviews all subrecipient data prior to it being submitted to the Indiana
      Office of Management and Budget.

12.   Resolved. In response to our draft report, the grantee stated that it
      was working with the Indiana Office of Management and Budget on
      submitting a revised and corrected fourth quarter 2009 report to
      FederalRecovery.gov. OJP stated that it will coordinate with the ICJI
      to obtain a copy of this revised, which corrects ICJI’s initial
      overstatement of certain information.

      To close this recommendation, please provide a copy of the revised,
      accurate report submitted to FederalRecovery.gov.




                                      54
